<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                  JOSE' E. SERRANO, New York, Chairman

 CAROLYN C. KILPATRICK, Michigan    RALPH REGULA, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER,      MARK STEVEN KIRK, Illinois
Maryland                            RODNEY ALEXANDER, Louisiana
 DEBBIE WASSERMAN SCHULTZ, Florida  VIRGIL H. GOODE, Jr., Virginia
 PETER J. VISCLOSKY, Indiana        JO BONNER, Alabama             
 ROBERT E. ``BUD'' CRAMER, Jr.,     
Alabama                             
 MAURICE D. HINCHEY, New York       
 ADAM SCHIFF, California            

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Dale Oak, Bob Bonner, Karyn Kendall, and Francisco Carrillo,
                           Subcommittee Staff

                                ________

                                 PART 6
                                                                   Page
 Federal Judiciary................................................    1
 Supreme Court....................................................  101
 District of Columbia.............................................  133

                                   S

                                ________

         Printed for the use of the Committee on Appropriations


 PART 6--FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                                  2009
                                                                      ?

   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                  JOSE' E. SERRANO, New York, Chairman

 CAROLYN C. KILPATRICK, Michigan    RALPH REGULA, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER,      MARK STEVEN KIRK, Illinois
Maryland                            RODNEY ALEXANDER, Louisiana
 DEBBIE WASSERMAN SCHULTZ, Florida  VIRGIL H. GOODE, Jr., Virginia
 PETER J. VISCLOSKY, Indiana        JO BONNER, Alabama             
 ROBERT E. ``BUD'' CRAMER, Jr.,     
Alabama                             
 MAURICE D. HINCHEY, New York       
 ADAM SCHIFF, California            

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Dale Oak, Bob Bonner, Karyn Kendall, and Francisco Carrillo,
                           Subcommittee Staff

                                ________

                                 PART 6
                                                                   Page
 Federal Judiciary................................................    1
 Supreme Court....................................................  101
 District of Columbia.............................................  133

                                   S

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 42-830                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE' E. SERRANO, New York         DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
Alabama                             JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama                  
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              

                  Rob Nabors, Clerk and Staff Director

                                  (ii)


   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2009

                              ----------                              

                                         Wednesday, March 12, 2008.

                           FEDERAL JUDICIARY

                               WITNESSES

HON. JULIA SMITH GIBBONS, UNITED STATES CIRCUIT JUDGE, UNITED STATES 
    COURT OF APPEALS FOR THE SIXTH CIRCUIT
JAMES C. DUFF, DIRECTOR, ADMINISTRATIVE OFFICE OF THE UNITED STATES 
    COURTS

                  Chairman Serrano's Opening Statement

    Mr. Serrano. Good morning to everyone. The subcommittee 
will come to order.
    We will hear testimony today on the subject of the fiscal 
year 2009 budget request for the Federal Judiciary. It is 
interesting, and I just got this terrible feeling, I get about 
three binders ahead of time. I said, what happens if I pick up 
the binder for tomorrow's hearing and start reading. Tomorrow 
is the Supreme Court.
    We all know the important role that an independent Federal 
Judiciary plays in our constitutional system. Judiciary, like 
other government entities, needs sufficient resources to 
properly function and perform its constitutional duties. This 
subcommittee, as a provider of those resources, plays an 
important role in helping to maintain our government's overall 
system of checks and balances.
    For fiscal year 2009, the Judiciary has requested $6.3 
billion in discretionary funding, an increase of nearly $475 
million over fiscal year 2008. I look forward to a discussion 
today on this request, as well as the impact of action this 
committee took during fiscal year 2008 at the request of the 
Judiciary with regards to court security and pay for public 
defenders.
    Joining us today to testify in support of the budget 
request is Judge Julia Gibbons of the U.S. Court of Appeals for 
the Sixth Circuit. Since 2004, Judge Gibbons has served as 
Chair of the Budget Committee of the Judicial Conference. Judge 
Gibbons testified before this subcommittee last year, and we 
are pleased to have you here once again.
    Also appearing before the subcommittee today is James Duff, 
the Director of the Administrative Office of the U.S. Courts. 
Mr. Duff was appointed to this position in 2006 by Chief 
Justice John Roberts. In the late 1990s, he served for 4 years 
as Administrative Assistant and Chief of Staff to Chief Justice 
William Rehnquist.
    We welcome you both today. We very much look forward to 
hearing from you.
    Also, I would like to tell you that as of this morning, 
President McCain has been challenged--I mean Senator McCain, 
has been challenged out West as to whether he is eligible to be 
President. I keep asking every lawyer, every judge that comes 
before me, please clarify whether I can be President, because 
he was born in the Panama Canal Zone and I was born in Puerto 
Rico. So I hope if he gets a favorable ruling, which he should, 
it includes me too. There is more than one way to make me 
happy.
    Okay. We thank you.
    Speaking of a person who has no doubts that he can be 
President, and should have been, and should be, Mr. Regula.
    Mr. Regula. Mr. Chairman, I hope you don't run, because I 
might have to do a cross-over.
    Mr. Serrano. Thank you so much.

                     Mr. Regula's Opening Statement

    Mr. Regula. I am happy to welcome you, and look forward to 
your testimony. Your local colleagues have softened me up as 
much as they can as to what your mission is today.
    Mr. Serrano. Thank you. You realize tomorrow's headlines, 
unfortunately, will not be anything that you say; it will be 
that I said President McCain.
    We welcome you. Please understand that all of your 
testimony will be fully inserted in the record. So we ask that 
you stay to a 5-minute presentation.
    Judge Gibbons.

                        Judge Gibbons' Testimony

    Judge Gibbons. Thank you.
    Chairman Serrano, Representative Regula, other members of 
the subcommittee, I testify before you today as Chair of the 
Judicial Conference Committee on the Budget. As mentioned, 
appearing with me today is Jim Duff, the Director of the 
Administrative Office of the U.S. Courts.
    Mr. Chairman, let me begin today by thanking you and your 
colleagues for making the judiciary a funding priority in the 
fiscal year 2008 appropriations cycle. The courts are in good 
financial shape for 2008. The funding you provided will allow 
us to finance continuing operations in the courts, as well as 
address workload needs.
    We are particularly appreciative of the $25 million you 
provided in emergency funding to respond to workload associated 
with immigration enforcement initiatives being implemented by 
the Department of Homeland Security and the Department of 
Justice. We are also grateful for two provisions that were 
included in the omnibus bill, an increase in the non-capital 
hourly rate paid to private panel attorneys who represent 
eligible defendants under the Criminal Justice Act, and a pilot 
project in our court security program. I will return to the 
pilot project again in a moment.
    Turning to our fiscal year 2009 budget request, the 
judiciary is requesting $6.7 billion for fiscal year 2009, an 
increase of $475 million over the 2008 enacted level. $407 
million, or 86 percent of the increase, is for standard pay and 
non-pay inflationary adjustments, and for adjustments to base 
reflecting increases in our space, information technology, 
defender services, and court security programs. We are not 
requesting any new staff in our clerks and probation offices.
    The remaining $68 million of our requested increase is 
primarily for program improvements in our information 
technology program and for an enhancement in our defender 
services program to increase the hourly rate paid to private 
panel attorneys representing indigent defendants in Federal 
criminal cases. We are appreciative of the rate increase you 
provided this year, but believe an additional increase is 
warranted.
    The judiciary's budget request reflects our continuing 
efforts to contain costs. We are now more than 3 years into an 
intensive effort to reduce costs throughout the judiciary, and 
our cost-containment program is producing results. Today, we 
have achieved the most significant savings in our space and 
facilities program through an ongoing rent validation project 
in which court staff analyze GSA rent billings and identify 
errors for GSA to correct and give us rent credits. GSA has 
been very cooperative with us in this endeavor.
    In the information technology area, we are consolidating 
the deployment of computer servers throughout the country, 
which generates savings from reduced maintenance and equipment 
replacement costs. We are also containing personnel costs. At 
its September 2007 meeting, the Judicial Conference approved 
recommendations from a major court compensation study that will 
slow the growth in personnel costs throughout the judiciary. 
Containing costs is a top priority for us.
    I want to talk briefly about the pilot project approved in 
the 2008 omnibus bill. Last year in my testimony I discussed 
with you the judiciary's concerns about the expense and quality 
of security provided to the courts by the Federal Protective 
Service. The subcommittee responded to these concerns by 
approving a pilot project authorizing the United States 
Marshals Service to assume perimeter security duties from FPS 
at a limited number of court facilities on a temporary basis. 
Seven courthouses have been selected for the pilot. One of 
these is the Moynihan Federal Courthouse in Manhattan. The 
pilot project will begin later this year and will be in effect 
for 18 months. We will evaluate the project and provide you 
with the results.
    An issue that has received significant attention from 
Congress and the Administration in recent years is illegal 
immigration. Significant resources have been provided to the 
Department of Homeland Security for immigration enforcement, 
and the President's fiscal year 2009 budget request continues 
these investments. Despite zero tolerance immigration 
enforcement initiatives like Operation Streamline, we 
understand that in recent years resource constraints in the 
justice enforcement system on the border have limited the 
number of immigration cases being prosecuted in the Federal 
courts.
    It now appears that additional resources are making their 
way to the border. The Department of Justice received emergency 
funding this fiscal year to hire additional Assistant U.S. 
Attorneys and Deputy U.S. Marshals on the border, and more 
border resources are included in the President's 2009 budget 
request. We expect to see the courts' workload in that region 
increase from this infusion of resources.
    Our fiscal year 2009 budget request does not ask for new 
funding for new clerks or probation office staff on the border 
or elsewhere. Congress provided us with $45 million over the 
last 2 years to address immigration-related workload, and so 
the courts are well-positioned in the short-term to respond to 
the increased workload.
    But I do want to emphasize that we are in need of 
additional judgeships on the southwest border, and I would also 
make a special plea for the subcommittee's support of the $110 
million requested for the General Services Administration in 
the President's budget to fund fully the new Federal courthouse 
in San Diego. This is our top space priority.
    In conclusion, I would ask that my written statement be 
placed in the record, along with the statements of the AO, the 
Federal Judicial Center, the Sentencing Commission, the Court 
of Appeals for the Federal Circuit, and the Court of 
International Trade.
    I am of course available to answer your questions.
    [The statement of Judge Gibbons follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.001
    
    [GRAPHIC] [TIFF OMITTED] T2830A.002
    
    [GRAPHIC] [TIFF OMITTED] T2830A.003
    
    [GRAPHIC] [TIFF OMITTED] T2830A.004
    
    [GRAPHIC] [TIFF OMITTED] T2830A.005
    
    [GRAPHIC] [TIFF OMITTED] T2830A.006
    
    [GRAPHIC] [TIFF OMITTED] T2830A.007
    
    [GRAPHIC] [TIFF OMITTED] T2830A.008
    
    [GRAPHIC] [TIFF OMITTED] T2830A.009
    
    [GRAPHIC] [TIFF OMITTED] T2830A.010
    
    [GRAPHIC] [TIFF OMITTED] T2830A.011
    
    [GRAPHIC] [TIFF OMITTED] T2830A.012
    
    [GRAPHIC] [TIFF OMITTED] T2830A.013
    
    [GRAPHIC] [TIFF OMITTED] T2830A.014
    
    [GRAPHIC] [TIFF OMITTED] T2830A.015
    
    [GRAPHIC] [TIFF OMITTED] T2830A.016
    
    [GRAPHIC] [TIFF OMITTED] T2830A.017
    
    [GRAPHIC] [TIFF OMITTED] T2830A.018
    
    [GRAPHIC] [TIFF OMITTED] T2830A.019
    
    [GRAPHIC] [TIFF OMITTED] T2830A.020
    
    [GRAPHIC] [TIFF OMITTED] T2830A.021
    
    [GRAPHIC] [TIFF OMITTED] T2830A.022
    
    [GRAPHIC] [TIFF OMITTED] T2830A.023
    
    [GRAPHIC] [TIFF OMITTED] T2830A.024
    
    [GRAPHIC] [TIFF OMITTED] T2830A.025
    
    [GRAPHIC] [TIFF OMITTED] T2830A.026
    
    [GRAPHIC] [TIFF OMITTED] T2830A.027
    
    [GRAPHIC] [TIFF OMITTED] T2830A.028
    
    [GRAPHIC] [TIFF OMITTED] T2830A.029
    
    [GRAPHIC] [TIFF OMITTED] T2830A.030
    
    [GRAPHIC] [TIFF OMITTED] T2830A.031
    
    [GRAPHIC] [TIFF OMITTED] T2830A.032
    
    [GRAPHIC] [TIFF OMITTED] T2830A.033
    
    [GRAPHIC] [TIFF OMITTED] T2830A.034
    
    Mr. Serrano. Those statements will be included in the 
record.
    Mr. Serrano. Mr. Duff.

                       Director Duff's Testimony

    Mr. Duff. Good morning, Chairman Serrano and Congressman 
Regula. Thank you for inviting us to be here this morning.
    I am pleased to present the budget request for the 
Administrative Office of the U.S. Courts. I will make some 
brief remarks and also ask that my written testimony be 
included in the hearing record.
    I join Judge Gibbons in thanking you sincerely for what you 
have done for the courts over the past year. We very much 
appreciate it. We know what it means in such a tight funding 
environment to be almost singled out for funding in such a 
beneficial way.
    We deeply appreciate you recognizing the impact that 
enhanced border enforcement will have on the judiciary by 
providing emergency appropriations to address the additional 
workload. This funding will provide some staffing increases for 
courts whose workload is heavily impacted by immigration and 
other law enforcement initiatives.
    This is my second appearance before the subcommittee. I 
have now had the opportunity to work with this subcommittee and 
its staff through one full appropriations cycle. I must say, it 
has been a joy to work with your staff. They are very 
responsive, and we have established a very good working 
relationship with them. We appreciated very much being able to 
work so closely with you, as our requirements changed and your 
allocation was reduced during conference on the 2008 omnibus 
bill.
    The AO, I will mention very briefly as background, was 
created by Congress in 1939 to assist Federal courts in 
fulfilling the mission to provide equal justice under the law. 
It is a unique entity in the government. The AO does not 
operate as a headquarters for the courts. The courts' 
operations are decentralized. Although the AO provides 
administrative, legal, financial, management, security, 
information technology, and other support services to all the 
Federal courts, the court system is in essence decentralized 
throughout the country. The AO also provides support and staff 
counsel to the Judicial Conference of the United States and its 
25 Committees, and it helps implement Judicial Conference 
policies, as well as applicable Federal statutes and 
regulations.
    The AO has evolved over the years to meet the changing 
needs of the judicial branch. Service to the courts has been, 
and remains, our primary mission.
    Last year, I reported to you that I was assembling a small 
advisory group of judges and court executives to assist me and 
our Deputy Director, Jill Sayenga, in a review of the 
organization and the mission of the AO. The ad hoc advisory 
group confirmed that the AO is an organization of dedicated 
service-oriented and capable professionals, but it also 
identified some areas where the AO's performance or ways of 
conducting business could be improved, as any organization 
needs to do.
    We took a long, hard look at our operations to see where we 
could improve. Teams of AO managers have been assembled to plan 
and implement those recommendations. My goal is to ensure that 
the AO is the best and most efficient service organization in 
the government. I think we are on a path to accomplish that, 
thanks to the review that we have undertaken through the 
advisory group.
    In supporting the courts, the AO frequently finds itself 
responding to new developments, such as the Booker and Fanfan 
Supreme Court decisions, or implementing the new bankruptcy 
legislation. To do so, we work with court leaders to develop 
plans and processes for the judiciary to respond to new 
challenges.
    Two developments on which we are currently responding are 
the impact of enhanced immigration enforcement on the courts, 
and implementing the pilot project you authorized last year, 
under which the U.S. Marshals Service will assume 
responsibility from the Federal Protective Service for 
perimeter security at several designated courthouses.
    I want to mention briefly that last year I talked about our 
efforts to improve our working relationship with GSA. I think 
this is a very important development for the courts and for the 
Federal Government and for our funding in the long run. Last 
year, I reported we made substantial progress. Today, I am very 
happy to report that we have successfully concluded the effort 
to improve this relationship.
    I shouldn't say concluded, but a manifestation of success 
of the efforts occurred on February 19, just last month. I 
signed a memorandum of agreement with the GSA, which was 
cosigned by the GSA Public Buildings Service Commissioner, that 
changes the way rent will be calculated for all federally-owned 
courthouses to be delivered in the future. It also applies to 
32 existing courthouse facilities.
    This is a very significant development because, as you may 
recall, there were tensions between us and GSA over its rent 
calculations for the courts. Both the judiciary and GSA will 
benefit from knowing with certainty how much rent the judiciary 
will pay in the future and how much rent GSA will receive. 
Judiciary and GSA staff time and resources for contractor 
support to conduct and validate market appraisals will no 
longer be used. There will be a return on investment 
arrangement, which provides stability and predictability.
    I would also like to respectfully request that you consider 
providing assistance in solving two major courthouse 
construction problems in San Diego and Los Angeles, where 
market conditions and delays have increased the costs of these 
projects beyond the funding levels already provided by 
Congress. In addition, other projects on the judiciary's 5-year 
courthouse project plan, which has been provided for the record 
as an attachment to my written testimony, are not included in 
the President's 2009 budget request, yet they have been on the 
5-year plan for a number of years.
    Shifting to the last topic, the fiscal year 2009 
appropriations request for the Administrative Office of the 
U.S. Courts is $82 million. That is an increase of $5.9 
million, or 7.8 percent over last year. Although the increase 
we are seeking may appear significant, overall it represents a 
no-growth current services budget. The requested increase is 
exclusively to cover base adjustments to maintain current 
services.
    I think it is significant to note that we are requesting no 
program increases. Over half of the increase is to fund the 
proposed fiscal year 2009 pay adjustments and to annualize the 
fiscal year 2008 pay adjustment. The balance is for 
inflationary adjustments.
    Chairman Serrano and Representative Regula and members of 
the subcommittee, I recognize that fiscal year 2009 will be 
another difficult year for you and for your colleagues as you 
struggle to meet the funding needs of the agencies and programs 
under your purview. I look forward to working with you and your 
staff once again, and would be pleased to answer any questions 
you have this morning.
    [The statement of Mr. Duff follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.035
    
    [GRAPHIC] [TIFF OMITTED] T2830A.036
    
    [GRAPHIC] [TIFF OMITTED] T2830A.037
    
    [GRAPHIC] [TIFF OMITTED] T2830A.038
    
    [GRAPHIC] [TIFF OMITTED] T2830A.039
    
    [GRAPHIC] [TIFF OMITTED] T2830A.040
    
    [GRAPHIC] [TIFF OMITTED] T2830A.041
    
    [GRAPHIC] [TIFF OMITTED] T2830A.042
    
    [GRAPHIC] [TIFF OMITTED] T2830A.043
    
    [GRAPHIC] [TIFF OMITTED] T2830A.044
    
    Mr. Serrano. Thank you so much. I notice that all 
representatives of the Federal judiciary call me Serrano, 
rather than Serrano. That is okay. But I just hope it is not an 
alias that you guys think I am working under.
    Mr. Regula. Don't feel bad; they call me Regula.

          RETROACTIVITY OF CRACK COCAINE SENTENCING AMENDMENT

    Mr. Serrano. In the Bronx, we would just say a regular guy.
    We have an issue here. We have a motion to adjourn on the 
floor now, then we are being asked, both sides, to stay on the 
floor. That can only mean we are getting angry at each other 
again. We were angry last night until very late. Every even 
number year we get angry. And so we may have to leave.
    A lot of these decisions that are made that seem like 
policy decisions do have a budget impact. One of the big issues 
being discussed now is the whole issue of the crack and powder 
cocaine sentences, which we understand up to 20,000 people 
could be leaving prison as a result of retroactive application 
of recent changes to the federal sentencing guidelines.
    So very briefly, if you could tell us, just give your views 
on this whole issue, and secondly, what impact would it have on 
the budget? Is there funding already being thought of to handle 
the caseload, the workload?
    Judge Gibbons. We are not asking for any new resources to 
handle that workload, and that might seem surprising when you 
hear that, 20,000 or so defendants are subject to resentencing. 
But if you look a little more carefully at what is likely to be 
involved, I think you will understand why we are not asking for 
additional resources.
    These individuals will be resentenced pursuant to a request 
that they make, a court makes, or the Bureau of Prisons makes 
pursuant to a statutory provision that allows the court to 
consider a number of factors, including public safety and 
conduct subsequent to conviction. But a full resentencing is 
not necessarily required, although there is plenty of room for 
the exercise of court discretion and room for courts to deny 
the motions if appropriate and if considerations counsel in 
favor of doing that.
    It is expected that at least initially the first wave of 
individuals will be people whose sentences are very, very close 
to termination, and there may be little disagreement about 
whether a person serves is released a month or two early, or 
even slightly more.
    I understand that as of Monday of this week, a mere week 
after the retroactivity provision became applicable, over 800 
of these individuals had already been processed, suggesting 
that at least in the first instance, there will not be that 
much burden associated with them. Down the road, certainly 
there will be litigation, but it will be spread over time, and 
we are hopeful we can handle this within existing resources.
    Mr. Serrano. Now it would seem to the public or to a person 
who is not working in the court system that if you speak of 
20,000, it just has to be a burden, the workload. Yet, you tell 
us you feel it can be handled within existing funding sources 
and somehow fit into the existing workload. I hope you are 
right, because otherwise we are going to have a major issue.
    Judge Gibbons. I hope I am.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    While the U.S. Sentencing Commission estimates that approximately 
19,000 inmates sentenced under the previous crack cocaine sentencing 
guidelines may be eligible for a reduced sentence as a result of 
retroactive application of the revised sentencing guidelines, it is 
important to note that these 19,000 would potentially be released over 
the course of 30 years. The Commission estimates that 3,804 of the 
19,000 offenders would be eligible for a reduced sentence and early 
release within the first year of the effective date for retroactivity 
(March 3, 2008). In year two another 2,118 would be eligible, 1,967 
more in year three, 1,773 more in year four and 1,353 more in year 
five. The remaining offenders would be eligible in year six and after. 
These filings will be handled by various district court components, 
including district judges, clerks offices, probation offices, and 
federal defender offices. the Judiciary believes retroactivity will 
have the greatest impact on its probation offices, which will supervise 
any crack cocaine offenders that may be granted early release, 
including overseeing any drug testing and treatment needs that may be 
imposed by a court as a condition of release.
    It is generally agreed that a large number of motions for a 
reduction in sentence will not involve court hearings and will be 
decided on written filings, so the courts' workload associated with 
processing those cases should not be unduly burdensome. The cases that 
require hearings will require more court resources. At present, no 
extraordinary measures have been necessary to address the increased 
workload due to retroactivity, although additional resources will be 
available if needed for smaller districts that may be 
disproportionately impacted by the number of federal offenders seeking 
a reduction in sentence based on retroactivity. Given all of these 
factors, and the staggered nature of offenders becoming eligible for a 
reduced sentence, the Judiciary believes it can absorb the additional 
workload within existing resource levels by shifting funds as necessary 
to meet workload demands, including ensuring that released offenders 
receive close supervision by a probation officer.

    Mr. Serrano. We are going to have to break and go take this 
vote, then I understand there is a privileged resolution that 
may be presented by the minority leader. Maybe we can come 
back, because we will have the debate and probably a 15-minute 
vote.
    Mr. Regula. I don't have that many questions. We can submit 
ours for the record.
    Mr. Serrano. Why don't we just break and come back. Sorry 
about that. We will be back.
    [Recess.]
    Mr. Serrano. We will resume. We apologize. We are going to 
try, with all due respect to all your preparation, to wrap up 
the hearing, only because we are getting happy with each other 
on the House floor. The love that you see is incredible. God 
bless democracy. It is, I am serious, it is part of it, because 
there is going to be a privileged resolution on the floor, 
there will be some debate, then there will be a vote which we 
both have to be at.
    Let me just ask you another question, and then I will turn 
it over to Mr. Regula.

                            COST CONTAINMENT

    Director Duff, now that you have held your position for 
nearly 2 years, you are probably in a better position than when 
you testified last year to assess the cost containment and 
other management strategies that you put in place within the 
judiciary. Would you comment on what you believe to be your 
biggest successes and your biggest challenges thus far?
    Mr. Duff. Thank you for the question, Mr. Chairman. I think 
one of our greatest successes is the recent agreement with GSA. 
I think that is going to result in a great savings to the 
judiciary.
    Mr. Serrano. I think any agreement with GSA may be huge.
    Mr. Duff. It is a benefit to GSA, too. I think it provides 
some predictability with the costs that we will incur with 
regard to rent going forward.
    We have also taken some other steps that I am proud of. One 
of the things that Chief Justice Roberts and I have been most 
interested in doing is, rather than responding to Congress and 
Congress' pressures, is getting out ahead of this a little bit.
    The pressures we have received from Congress have resulted 
in very good developments for the judiciary. Sometimes there is 
initial resentment. But in many instances, it has been good and 
healthy for the judiciary.
    Here is an example, however, where I think we got ahead of 
the Congress in the last year. We took a look at the projected 
costs of career law clerks in judges' chambers and saw a trend 
that we didn't like. More judges were hiring more and more 
career law clerks rather than term law clerks, which are there 
for 1 year. Career law clerks are more expensive over time, 
they have higher salaries, and so forth. The Judicial 
Conference took action this past year and put some limitations 
in place on the number of career law clerks each judge could 
hire. We limited those to one per chamber. Over time, that may 
not sound like much, but it will save a lot of money.
    We are taking a very close look at all of our expenditures, 
seeing where we can cut costs, where we can save, and we have 
been working with your staff very closely on these sorts of 
measures, too. I am encouraged as to what the judiciary is 
doing not only in response to congressional inquiries and 
pressures, but also on its own initiative.

                          PANEL ATTORNEY RATES

    Mr. Serrano. Thanks.
    In last year's bill we included an increase in the hourly 
rates paid to panel attorneys for non-capital work to $100 per 
hour. Why is the judiciary requesting $17.5 million, for an 18 
percent increase in the rate to $118 per hour for fiscal year 
2009? Is the current $100 rate inadequate to attract qualified 
panel attorneys?
    Judge Gibbons. Certainly we are very grateful for the 
increase to $100 an hour. But we believe that is still 
inadequate in some circumstances to attract qualified 
attorneys. We have done surveys, and they support this point. I 
would also note that even with the rate increase, after 
deduction of overhead, the private panel attorney is making on 
average $36 an hour before taxes. By contrast, a privately 
retained attorney in a criminal case could expect, after 
overhead, to net about $148 an hour.
    The government pays lawyers $200 an hour to represent 
Federal employees in civil and criminal matters. So we believe 
that the additional two-stage increase we are requesting to 
$118 in 2009, then hoping to go to $140 in 2010, which would 
bring us to the point contemplated when the adjustment 
procedures in the Criminal Justice Act were initially enacted. 
We believe that that would really enhance our ability to make 
sure that defendants receive the quality representation that 
the Constitution requires.
    Mr. Serrano. Before I turn it over to Mr. Regula, let me 
just clarify the overhead part. You said after overhead, it was 
$36 an hour. But if you were assigning $118, what overhead are 
we talking about?
    Judge Gibbons. The $36 relates to the amount remaining 
after overhead at the $100 an hour rate. In other words, almost 
two-thirds of the lawyer's expenses don't end up in the 
lawyer's pocket, it goes towards overhead expenses, such as 
rent, utilities, those kinds of things.
    Mr. Serrano. Mr. Regula.

                    JUDGES LEAVING THE FEDERAL BENCH

    Mr. Regula. Thank you. I have to congratulate you in the 
sense that anybody in public life is fair game. But I do not 
get criticism from my constituents on the judiciary. They are 
critical of course of the executive branch and the legislative 
branch. But I have never had any of the judicial branch. I 
think people respect it, and generally perceive that the 
judicial branch is operating on a very unbiased, fair basis. We 
have had some great judges from my area, as you well know.
    A couple of questions. What percent of Federal judges leave 
the bench to go back to private practice? Because that would 
reflect a little bit the conditions and the amount of money and 
so on.
    Mr. Duff. It is a growing percentage. I don't have the 
exact percentage, but what we have seen in the last few years 
is an increase in the number of judges leaving the bench, a 
slight increase. There is a growing increase in the number of 
judges leaving the bench entirely, retiring.
    But the significant change that we have seen over the 
course of the last 5, 10 years, and it is going up, up, up, is 
that the number of judges who do leave the bench, retire, do 
not take senior status, and are going into private practice or 
corporations or other lines of work, such as arbitration 
services and so forth.
    That is of great concern to us, because that number is 
increasing. Life tenure has its purposes, and is ensured in the 
Constitution for very good reason. We like to see our judges 
stay as long as they are capable of judging on the bench, and 
we are very grateful to our senior judges who could retire but 
stay on the bench and provide services to the judiciary.
    That has concerned us and we are very grateful to both the 
House and the Senate for considering actively this year the 
need to increase the salaries of judges to ensure that they 
stay on the bench and provide life service or life tenure to 
the country.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    Resignations from the federal bench once were rare. Now such 
resignations are increasingly frequent. Twenty-seven Article III judges 
have resigned or retired from the federal bench since January 1, 2005. 
It appears that 22 of these judges sought other employment. Of these 
22:
          6 of these judges ``retired'' to join JAMS, a private firm 
        comprised of former federal and state judges that provides 
        dispute resolution services, where they have the potential to 
        earn the equivalent of the district judge salary in a matter of 
        months.
          7 judges entered the private practice of law (presumably at 
        much higher salaries).
          2 judges resigned to become corporate in-house counsels.
          3 judges resigned to accept other, higher paying governmental 
        positions (two in state government and one in the federal 
        government).
          2 judges resigned to accept appointments in higher education.
          1 judge accepted an executive branch appointment at the same 
        salary.
          1 judge retired to accept an appointment to a quasi-
        governmental position.
    The table below shows the number of departures that has grown in 
tandem with the financial pressure of being an Article III judge:

------------------------------------------------------------------------
                                                              Number of
                        Time period                           departures
------------------------------------------------------------------------
1958 to 1969...............................................            3
1970 to 1979...............................................           22
1980 to 1989...............................................           41
1990 to 1999...............................................           55
2000 to March 18, 2008.....................................      \1\ 55
------------------------------------------------------------------------
\1\ This figure includes two judges who have announced their intention
  to resign from the federal bench later in 2008 without any right to an
  annuity.

    Of the 110 judges who have left the federal bench since 1990, 82 
retired from the judicial office and 28 departed before reaching 
retirement age (without any right to an annuity). To the Judiciary's 
knowledge, 65 of the aforementioned 110 judges (60 percent) stepped 
down from the bench to enter the private practice of law (including 
private dispute resolution firms). Twenty-three judges sought other 
employment (e.g., government and quasi-government agencies, academia, 
and the non-profit sector). This means that 80 percent of judges who 
left the federal bench did so for other employment and, in most cases, 
for significantly higher compensation.
    While the absolute numbers of judges leaving the federal bench may 
not seem large, it is significant that a substantial proportion of 
these separations appear to be related to compensation. That the 
numbers seem to be on the rise, and that a number of the departing 
judges were eligible for (or were in) senior status (when judges 
traditionally continue to give their energies to judicial service long 
after they retire from active service) or were younger, active judges 
without entitlement to an immediate or deferred annuity should give 
rise to particular concern. For judges to use the position as a mere 
stepping-stone to reentry into the private sector and law firm practice 
is inconsistent with the traditional lifetime calling of federal 
judicial service.

    Mr. Regula. Most of them serve by assignment even after 
retiring. Is that not often a common practice?
    Mr. Duff. Yes, sir. It is called senior status. Well, there 
are two levels of retirement, if you will. It is confusing to 
refer to judges who elect to take senior status as retired. 
There is some statutory language that confuses the two. But 
judges who reach the age of 65 and have 15 years of service, it 
is called the Rule of 80, can stay on the bench in senior 
status.
    Senior judges provide a lot of service to the judiciary. 
Rather than just leaving and going and sitting on the front 
porch in a rocking chair, they are providing services to the 
judiciary. They retain chambers, space and staff, provided they 
are doing a certain amount of work and so forth. That is 
different from retiring entirely, giving up their commission, 
and going into retirement, or, as we are seeing more and more, 
going into the private sector.
    Mr. Regula. Many of them do take senior status as sort of a 
transition.
    Mr. Duff. Many do, and we are grateful that they do rather 
than retiring entirely.

                           WORKLOAD OF JUDGES

    Mr. Regula. What is your observation on the workload of 
judges? Has it increased as we have become a more litigious 
society?
    Mr. Duff. I think the statistics over time have gone up. 
The types of cases have varied. The immigration and drug cases 
are adding certainly to the workload. There are some regional 
differences in workload, as we have pointed out to your 
committee and others.
    The slight decline in the last year or two in workload 
could give the wrong impression over a longer period of time as 
to what has happened to the workload within the judiciary. Even 
though there might be a slight decline in certain kinds of 
cases in the past year, if you look at the trend over the past 
5, 10 years, the workload has increased.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    Although the Judiciary's workload has begun to level of, workload 
in the federal courts has increased considerably in nearly all workload 
categories when viewed over a 10-year perspective. As summarized in the 
table below, from 1997 to 2007, criminal filings increased 37 percent, 
the number of criminal defendants grew 27 percent, offenders under 
supervision of a federal probation officer increased 27 percent, the 
number of cases activated in the pretrial services program increased 37 
percent, and appellate filings grew 13 percent. Civil filings follow a 
more up-and-down filing pattern from year to year and grew 3 percent 
overall in the last decade. Bankruptcy filings are down nearly 566,000 
filings from the 1997 level due in large part to the sharp decline in 
filings after the Bankruptcy Abuse Prevention and Consumer Protection 
Act took effect in October 2005.



----------------------------------------------------------------------------------------------------------------
                                                  1997 Actual  2007 Actual   Change 2007 vs.     Percent change
                 Workload factor                      \1\          \1\             1997          2007 vs. 1997
----------------------------------------------------------------------------------------------------------------
Criminal Filings................................       49,376       67,503             18,127                 37
Criminal Defendants Filed.......................       69,052       88,006             18,954                 27
Probation: Persons Under Supervision............       91,423      115,930             24,507                 27
Pretrial Services: Cases Activated..............       69,959       95,955             25,996                 37
Appellate Filings...............................       52,271       58,809              6,538                 13
Civil Filings...................................      265,151      272,067              6,916                  3
Bankruptcy Filings..............................    1,316,999      751,056          (565,943)                -43
----------------------------------------------------------------------------------------------------------------
\1\ Data reflects the 12-month period ending June of each year.

                       FEDERAL PROTECTIVE SERVICE

    Mr. Regula. I was interested in the Federal Protective 
Service. I assume that providing security for the courts and 
the judges is quite a challenge.
    Mr. Duff. Yes, sir.
    Judge Gibbons. Yes. Of course the U.S. Marshals Service 
statutorily has the authority, the responsibility for providing 
for our security. But we have gotten into this relationship 
with the Federal Protective Service through its provision of 
perimeter security in the buildings we occupy.
    Mr. Regula. I was interested; the Washington Post said 
Secretary Chertoff says he expects the FPS to raise their fees 
to help cover rising costs. Raise their fees to whom? Who pays 
their fees?
    Judge Gibbons. We do, as do all Federal agencies that are 
recipients of their services.
    Mr. Regula. So your budget would have the necessary funds 
to respond to any fee increase by FPS, is that correct?
    Judge Gibbons. Well, we just became aware of the letter to 
which you are referring, and we have some preliminary figures. 
The increase was not known to us prior to the receipt of that 
information yesterday. It is not in our budget because we were 
unaware of it.
    Mr. Regula. So Secretary Chertoff kind of threw you a curve 
in left field?
    Judge Gibbons. We estimate the additional cost would be $2 
million for all of fiscal year 2008. The fiscal year 2009 cost 
would be $3.2 million, which is not in our 2009 budget request. 
I think it is $2 million for 2008 because it is my 
understanding that Secretary Chertoff announced an increase for 
the fiscal year in progress and we are assuming the rate 
increase is retroactive to October 1, 2007, regardless of when 
the new personnel are hired.
    Mr. Regula. Well, you have done a great job on your 
testimony. Unfortunately, we have another vote and we have got 
time problems. So I have a number of questions I will submit 
for the record.
    Thank you, Mr. Chairman.
    Mr. Serrano. We certainly do have a vote pending and 
probably more to follow. So we will try to wrap it up. But we 
will recognize Mr. Schiff, who I know is not going to speak 
about a courthouse.

             CONSTRUCTION OF NEW COURTHOUSE IN LOS ANGELES

    Mr. Schiff. Well, thank you, Mr. Chairman, for the 
recognition. But I have to differ with you on the subject 
matter.
    I am only going to raise this because the chairman did and 
because Mr. Duff raised it in his testimony. I appreciate your 
discussing that in your testimony. As I know you are aware, the 
Central District of California has a population of 18 million. 
It is made up of seven counties. It is the largest, most 
populous judicial district in the Nation, with twice as large a 
population as the next largest district.
    In 2004, the Central District Court in Los Angeles was 
processing more than 16,000 cases a year. Currently, as you 
know, the district court is housed in two separate buildings, 
about a 5-minute walk from each other. One was built in 1938, 
and while it has eight beautiful historic courtrooms, it 
doesn't meet modern security requirements for judges, prisoners 
or the public.
    Discussions began as far back as 1984 to determine how to 
accommodate the additional courtrooms and judgeships to the 
court. Ten years later, the GSA determined that neither 
building could accommodate the long-term needs of the court, 
and the decision that a stand-alone building to house the 
entire district court was made.
    Here we are 24 years since the process began. The need has 
been growing. Construction has still not begun. You can imagine 
how concerned the judges are and the litigants and the public 
that serves their jury duty there about the situation. I spent 
6 years as a Federal prosecutor in and out of the courts there, 
so I am intimately familiar with the constraint of the current 
situation.
    While I understand that the funding for courthouse 
construction is not funded by the Administrative Office of the 
Courts, or the judiciary, but rather through GSA, I would ask 
you to explain a little further detail beyond your written 
testimony about the need for a new building in Los Angeles and 
why it is such a high priority of the Administrative Office.
    Mr. Duff. Well, it is a very high priority, and you are 
exactly right in the way you have described what has evolved. 
It is a problem because the cost estimates have gone up before 
construction was able to be started. It is a problem that GSA 
is working on with us to try to resolve, to figure out, what to 
do to get more funding.
    It is a question of funding right now, the additional 
funding that is going to be needed to meet increased 
construction costs, which are a factor of the market in 
Southern California. Finding available construction companies 
to do the work at the initial funding level proved to be 
impossible. So additional funds have been sought.
    It is something we are working very actively on with GSA to 
try to resolve and with the executive branch generally because 
the problem hasn't gone away, and it won't go away. This isn't 
something that is going to solve itself. So we are working with 
GSA.
    As I mentioned earlier, I think our relations with GSA have 
improved over the last year or two. The Los Angeles courthouse 
project is an area where we continue to have a conflict with 
GSA. But I have to say we have at least engaged in what is a 
more productive dialogue in trying to resolve a very difficult 
problem. You are right in saying these are funds that don't 
come out of our budget, but rather out of GSA's budget.
    Mr. Schiff. The concern I have is that while the cost of 
the project has gone up because we keep delaying construction, 
we actually have continued to reduce the scope of the project 
to bring costs down. I don't want to get to the point where 
what we build is already outdated and too small for what we 
need.
    While I value GSA's input on this, I don't want to have a 
long delay while GSA does another endless analysis of a problem 
we all recognize exists and then have to start over from 
scratch. The reality is a significant amount of money has been 
authorized and appropriated for this, but we need more. The 
same kind of cost increases we have seen because of the delays 
are going to continue, and may even get worse. This is 
consistently ranking at the top of the Administrative Office's 
priorities, the L.A. Courthouse.
    I assume that that criteria is still the same, and we are 
still at the top of the list. It just has to get done.
    Mr. Duff. You are correct. Our priority list changes from 
year to year based on new courthouse construction. The Los 
Angeles courthouse project remains a top priority for us. It 
doesn't appear on our current 5-year courthouse project plan 
because only construction projects that have not previously 
received funding for that purpose appear on the list. When 
additional funding is required for a project that was on an 
earlier priority list, it certainly remains a top priority, but 
you may see the identification of specific courthouses change 
from year to year based on which projects need new construction 
funding.
    Mr. Schiff. We look forward to beginning new construction 
and appearing on the top of every list.
    Mr. Duff. We do, too. Yes, sir.
    Mr. Schiff. We are going to really push to get that started 
now, and see if there is a way that can be funded through the 
supplemental.
    Mr. Duff. We appreciate any and all help we can get on it 
because it is a severe problem.
    Mr. Schiff. All of us in the Los Angeles region recognize 
this just has to get done. We don't want to wait for something 
bad to happen. So I appreciate your priority on this, and we 
will work with you to push the GSA along and see if we can find 
the money to finally get this started.
    Mr. Duff. Thank you very much, Congressman Schiff, and 
thank you for all your efforts on behalf of the judiciary. You 
have been an enormous supporter of ours this past year. We 
appreciate it.
    Mr. Schiff. Mr. Chairman, thank you for working me in 
before the votes, notwithstanding the topic.
    Mr. Serrano. I think the Jose Serrano Courthouse in L.A. 
will be fine.
    Mr. Schiff. Mr. Chairman, if that is what it will take. It 
has a nice ring to it.
    Mr. Serrano. I apologize for the fact that we didn't spend 
as much time with you as we would have wanted. I appreciate the 
work you do. We will continue to work together on this budget.
    I just leave you with one totally unrelated thought. About 
2 years ago, the members of the New York delegation were during 
a vote on the House floor saying why would David Paterson leave 
the Senate in New York, a safe seat, to go and become 
Lieutenant Governor, where nobody will notice him. At 11:30 he 
will be sworn in as Governor of New York in what started as a 
tragedy and is a tragedy. But it is a strange life that we are 
all living in and a strange profession we are in, all of us.
    I thank you, Mr. Regula, and I thank you. We will continue 
to work to make sure that you get the resources necessary to do 
your work.
    Judge Gibbons. Chairman Serrano, and I wanted to make sure 
I said that, we are appreciative of the opportunity to be 
heard.
    Mr. Serrano. Just get me the ability to run for President.
    Thank you so much. Meeting adjourned.

    [GRAPHIC] [TIFF OMITTED] T2830A.045
    
    [GRAPHIC] [TIFF OMITTED] T2830A.046
    
    [GRAPHIC] [TIFF OMITTED] T2830A.047
    
    [GRAPHIC] [TIFF OMITTED] T2830A.048
    
    [GRAPHIC] [TIFF OMITTED] T2830A.049
    
    [GRAPHIC] [TIFF OMITTED] T2830A.050
    
    [GRAPHIC] [TIFF OMITTED] T2830A.051
    
    [GRAPHIC] [TIFF OMITTED] T2830A.052
    
    [GRAPHIC] [TIFF OMITTED] T2830A.053
    
    [GRAPHIC] [TIFF OMITTED] T2830A.054
    
    [GRAPHIC] [TIFF OMITTED] T2830A.055
    
    [GRAPHIC] [TIFF OMITTED] T2830A.056
    
    [GRAPHIC] [TIFF OMITTED] T2830A.057
    
    [GRAPHIC] [TIFF OMITTED] T2830A.058
    
    [GRAPHIC] [TIFF OMITTED] T2830A.059
    
    [GRAPHIC] [TIFF OMITTED] T2830A.060
    
    [GRAPHIC] [TIFF OMITTED] T2830A.061
    
    [GRAPHIC] [TIFF OMITTED] T2830A.062
    
    [GRAPHIC] [TIFF OMITTED] T2830A.063
    
    [GRAPHIC] [TIFF OMITTED] T2830A.064
    
    [GRAPHIC] [TIFF OMITTED] T2830A.065
    
    [GRAPHIC] [TIFF OMITTED] T2830A.066
    
    [GRAPHIC] [TIFF OMITTED] T2830A.067
    
    [GRAPHIC] [TIFF OMITTED] T2830A.068
    
    [GRAPHIC] [TIFF OMITTED] T2830A.069
    
    [GRAPHIC] [TIFF OMITTED] T2830A.070
    
    [GRAPHIC] [TIFF OMITTED] T2830A.071
    
    [GRAPHIC] [TIFF OMITTED] T2830A.072
    
    [GRAPHIC] [TIFF OMITTED] T2830A.073
    
    [GRAPHIC] [TIFF OMITTED] T2830A.074
    
    [GRAPHIC] [TIFF OMITTED] T2830A.075
    
    [GRAPHIC] [TIFF OMITTED] T2830A.076
    
    [GRAPHIC] [TIFF OMITTED] T2830A.077
    
    [GRAPHIC] [TIFF OMITTED] T2830A.078
    
    [GRAPHIC] [TIFF OMITTED] T2830A.079
    
    [GRAPHIC] [TIFF OMITTED] T2830A.080
    
    [GRAPHIC] [TIFF OMITTED] T2830A.081
    
    [GRAPHIC] [TIFF OMITTED] T2830A.082
    
    [GRAPHIC] [TIFF OMITTED] T2830A.083
    
                                          Thursday, March 13, 2008.

                             SUPREME COURT

                               WITNESSES

HON. ANTHONY M. KENNEDY, ASSOCIATE JUSTICE, UNITED STATES SUPREME COURT
HON. CLARENCE THOMAS, ASSOCIATE JUSTICE, UNITED STATES SUPREME COURT

                  Chairman Serrano's Opening Statement

    Mr. Serrano. This hearing will come to order. Good morning 
to all. The subcommittee will hear testimony today on the 
subject of the fiscal year 2009 request of the United States 
Supreme Court. We are all well aware of the important role that 
the Supreme Court plays in our constitutional system and the 
subcommittee takes its role as the appropriators of the Supreme 
Court's budgetary resources very seriously. Joining us today to 
testify on the importance of the Supreme Court's budget request 
are Justice Anthony Kennedy and Justice Clarence Thomas. And we 
welcome you. Both justices have testified here several times 
before this committee. And I know that, as ranking member of 
another committee, this may be our 10th year together, or 
something like that, in support of the Court's budget request. 
We welcome you back and we appreciate you taking the time to 
come and testify. We very much look forward to hearing your 
testimony about the needs of the Supreme Court, as well as any 
thoughts you may have on the federal judiciary as a whole.
    For fiscal year 2009, the Supreme Court has submitted a 
request for just over $88 million. Nearly $10 million more than 
fiscal year 2008. A substantial part of the increase for the 
Supreme Court is for the ongoing building modernization 
project. I look forward to hearing how the project is 
progressing.
    I probably will get staff--they are a little upset at me, 
but I say what I say every year. I still feel somewhat 
uncomfortable about having the Supreme Court Justices come 
before us. We hold you in high regard, and we hold the Court in 
high regard. It is the way the system is set up. Maybe it can 
change in the future. I understand it is the only time you 
appear before Congress during the year, certainly to discuss a 
budget. But we do welcome you.
    And for those of you who were trying to figure out what we 
were discussing for a few minutes, we did not make any major 
decisions on anything. Although I must say, on a personal 
level, that for about 10 years, I have been trying to get out 
of you an unofficial comment on whether or not someone born in 
Puerto Rico can serve as President. And from what I understand 
from a California case, you may have to decide on Senator 
McCain. So if you do, I will try to get myself included in the 
same thing.
    It is nice to have you here. And speaking about a man who 
has no problems with being President in terms of where was he 
was born, our ranking member and my buddy, Mr. Regula.

                     Mr. Regula's Opening Statement

    Mr. Regula. Thank you, Mr. Chairman.
    Yes, the State of Ohio competes with Virginia for being the 
mother of Presidents. We have some dispute as to which has 
eight Presidents, and I come from the home of William McKinley, 
the 25th President of the United States.
    We are happy to welcome you. I was thinking as we were 
sitting here that the judiciary and the judicial system to some 
extent is the conscience of the Nation because you have to look 
at the laws and determine what the impact will be, what they 
mean. And having the courts available to the people is a very 
important part of our Nation and the rights of each of us. So 
we salute what you do. We appreciate having you here this 
morning.
    As the chairman said, it is one of the few places where the 
judiciary intersects with the legislative branch in the 
separation of powers. But the Founding Fathers had found in 
their wisdom that the power of the purse should remain in the 
legislative branch. So that brings us together this morning, 
and we look forward to your testimony. Thank you for being 
here.
    Mr. Serrano. Thank you, Mr. Regula.
    I would like to remind you that your full testimony will be 
inserted into the record. So we would appreciate, to allow for 
questions during these difficult voting times, if you could 
keep your remarks down to 5 minutes. However, I am not about to 
gavel a member of the Supreme Court, especially before the 
ruling on my Presidency. So, with that in mind, please welcome 
and start your testimony, please.

                      Justice Kennedy's Testimony

    Justice Kennedy. Thank you, Mr. Chairman, Mr. Vice 
Chairman. Justice Thomas joins me in thanking you for the 
opportunity to appear before the committee.
    As is our custom and our pleasure, we have with us the 
officers of the Supreme Court sitting, beginning with our 
Clerk, General Suter. And then there is Connie Phillip, of 
budget and personnel; our administrative assistant to the Chief 
Justice, Jeff Minear; Pam Talkin, the Marshal of the Court; and 
Kathy Arberg, the Public Information Officer.
    Mr. Chairman, oh, incidentally, I can give you a ruling 
right now. You are eligible to come to the Supreme Court.
    Mr. Serrano. I am eligible to serve on the Supreme Court? 
Is that what you just said?
    Justice Kennedy. No problem with that. So if your 
Presidential ambitions subside, you can always come----
    Mr. Serrano. But President is kind of cool.
    Justice Kennedy. Mr. Chairman, you are correct that this is 
one of the few times that the Court, the judiciary, interacts 
with the legislature. But that is because checks and balances 
presume that there will not be complete separation, that there 
will be some interaction.
    The fact that we do come before you is really important for 
us because it gives us a discipline, structure, a rule. We know 
that we must justify our budget, and that makes us as an 
institution careful about adopting a new program, careful about 
the expenditures of public funds. And so this serves that very 
important purpose. I might say that it has perhaps been your 
experience, and I certainly heard about it, that in some 
instances, there is a certain amount of tension or lack of a 
good working relationship between the committee staff and the 
agency that it oversees. That has not been our experience with 
your staff. In fact, quite the opposite. The working 
relationship between your staff and between our staff is simply 
excellent. If we find what we think might be a problem that 
your committee would be interested in, we immediately notify 
the staff. They are always very perceptive and responsive.
    Mr. Serrano. Justice Kennedy, the TV people would like you 
to move the microphone a little closer. And you know, that is 
the real power in this society.
    Justice Kennedy. Is that working better for you? All right. 
Thank you very much.
    Mr. Serrano. Thank you.
    Justice Kennedy. As you indicated, Mr. Chairman, the budget 
request for the Court part of the budget, leaving aside the 
building and grounds, is $69,776,000, just under $70 million. 
We are very proud of the fact that there is a zero increase in 
the request--zero request for new programs. One hundred percent 
of the increase, and it is an increase of under 5 percent, is 
for adjustments to base. We worked hard to do that.
    I might say that when we talk about new programs, in a 
sense, that is important for budgetary and appropriations 
requests language, but we have within the Court resources to 
make new programs--within--or we have new endeavors, new 
projects within the budgetary authority that you have given us 
already. Let me just explain one of these, and that is the 
development of the docket that we have on the internet.
    There are about 175 appellate courts in the United States, 
and I get this information from our Clerk, General Suter, who 
is so conversant on this and who really was in charge of Docket 
21, which is our Web site docket. These appellate courts are 
different; they number one hundred seventy-five. This is 
probably too small for us to go to an outside contractor and 
say develop a program, and in all events each of the appellate 
courts is different. And if we had an outside contractor, we 
would have to pay that contractor to learn about how the Court 
works.
    So we did it ourselves over a period of 4 years. It is the 
best Web site of any court in the world. We had an increase of 
over 2 million visits in the last 2 years, that is an increase 
of a million a year. For January we had over 1,700,000 visits, 
and had over 9 million hits. We checked just in the last 24 
hours or so and found out that about 10 percent of those visits 
are from foreign countries. Japan, Pakistan, Western Europe, 
and India. It is a marvelous education tool.
    It also means that it is of substantial assistance to the 
bench and to the bar. What happens is formal, written, printed, 
hard copy briefs are filed with the court. But the parties also 
must file an electronic copy. We immediately send that copy to 
the American Bar Association, and at no expense to the 
government, the American Bar Association puts online the text 
of all the briefs and all the amicus briefs. And the hits I 
have given you, incidentally, do not include the hits on the 
ABA site to read the briefs.
    I think we should do a better job, at least I should do a 
better job, when I visit with high school students or 
university students to tell them to visit the Web. It is the 
Supreme Court of the United States, just abbreviated slightly, 
supremecourtus.gov. Supremecourtus.gov, and it is a marvelous 
educational tool. It has the history of the Court. It has 
pictures of the Court and, of course, detailed information 
about the cases.
    In an age when so many young people do not write well, the 
amicus briefs are a treasure trove for writing instruction. You 
could get a young person, even in high school, interested in a 
case and show them a very good example or a very bad example of 
writing. This is just the tip of the iceberg. And this was 
developed, as I have indicated, all inhouse, all with our Court 
staff without any outside contractors. And it was done with 
your budgetary authority, and we are extremely proud of it.
    This is what a court ought to do, as Mr. Regula indicated. 
We have a duty to let the public know what we are doing and why 
we are doing it. So we are very, pleased that you have given us 
the authority to do that.
    You mentioned the building project. I sometimes think it is 
like pyramids; it just seems never to end. We are, even by the 
contractor's own estimate, 16 months behind schedule. Our 
inhouse people think that it is going to be longer than that. 
It means that the court is not really presentable for visitors. 
We think it turns away some visitors because we have temporary 
walkways, people do not know that the cafeteria is open, et 
cetera. Plus, it is a building of which the People of the 
United States and, of course, the justice system and the 
Members of the Congress are very proud.
    So I just can not tell you that I am pleased with the 
progress. It is true that they are working around the Court, 
and the contractor has not disrupted our operations in any 
substantial degree. There have been occasions where this has 
happened. But we will continue to work with the Architect of 
the Capitol. And I probably should pay more attention to this, 
and I hope I can give you a more optimistic report the next 
time. Thank you very much, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.084
    
    [GRAPHIC] [TIFF OMITTED] T2830A.085
    
    [GRAPHIC] [TIFF OMITTED] T2830A.086
    
    [GRAPHIC] [TIFF OMITTED] T2830A.087
    
    [GRAPHIC] [TIFF OMITTED] T2830A.088
    
    [GRAPHIC] [TIFF OMITTED] T2830A.089
    
    [GRAPHIC] [TIFF OMITTED] T2830A.090
    
    [GRAPHIC] [TIFF OMITTED] T2830A.091
    
    Mr. Serrano. Thank you.
    Mr. Thomas.

                       Justice Thomas' Testimony

    Justice Thomas. Thank you, Mr. Chairman, Mr. Regula.
    I agree with Justice Kennedy's assessment of where we are 
and the sentiments toward the committee. I have been involved 
in budget processes now for over 25 years at the Federal level. 
And I can attest to the fact that the Court's budgets have been 
more parsimonious than any budget I have ever participated in. 
In fact, if anything, the Court has been overly parsimonious in 
its budget requests.
    With respect to the automation projects that are now 
yielding immense results, I don't think any of us could have 
dreamed or dreamt that it would have been this successful. I 
don't think that any of it could have been accomplished without 
the constant support of this committee and sometimes because of 
the prodding of this committee. So, again, I think that the 
working relationship between the Court and the staffs, both at 
the Court and on this committee, is beginning to bear fruit.
    So, once again, I appreciate being here, and I know over 
the past decade you have expressed your concerns about us 
appearing. But I might say that, despite your expression of 
those concerns, it has been a deep honor for me to be here. So 
we thank you once again. We thank you on behalf of the Court as 
well as the country that we all serve.
    Mr. Serrano. All right. Thank you. And I appreciate your 
comments.

                         BUILDING MODERIZATION

    You say that we are 16 months behind in the building 
modernization project and the inside folks think it is longer 
than in the plan. But is that 16 months still to end this fall?
    Justice Kennedy. They are 16 months behind the projected 
completion date.
    Mr. Serrano. Which was?
    Justice Kennedy. Which was 2008, 2008.
    Mr. Serrano. So it won't end this fall?
    Justice Kennedy. So we are 16 months beyond the projected 
completion date and the contracted completion date.
    And part of the problem is--I wanted to go to double shifts 
in the summer, and they told me that that would not help--the 
work does have to be done at night because we are in the 
building. I originally floated the idea of our moving out of 
the building to get it done faster. We were told it would not 
save any money, and it would not be any faster. So we stayed in 
the building. And the contractor has been very good about 
working around--we do it in quadrants. There are four different 
segments, and we are now on the second segment.
    Mr. Serrano. What reasons do they give for the delay? 
Because you are in the building during the day? They knew that 
ahead of time, right?
    Justice Kennedy. It is standard construction stuff. This 
person didn't measure the windows right. But if you look at our 
Court, it is a magnificent court and the windows look 
rectangular. They are not. They are hexagonal. That is not 
right.
    Justice Thomas. Trapezoids.
    Justice Kennedy. Trapezoidal. They are slightly narrower at 
the top than the bottom to give an aesthetic appearance. Well, 
they measured the bottom, and they measured the height. But 
they did not measure the tops, so all the windows had to go 
back. And there is a big argument as to who will pay for it. 
Please, do I have to talk about this?
    Mr. Serrano. You see, I do make my point. And we spare you 
talking about paper clips and legal pads, you know. And just 
one last question on that, without making it difficult for you, 
but have they told you what remains to be done other than 
just----
    Justice Kennedy. Well, we know. The work is very 
substantial. On the interior, they have to go down to the 
original brick. They have to basically take away all the 
interior walls to put in new windows. It is very substantial. 
The inside of the Court at each point is completely stripped 
down to the outside layer of bricks. And so it is quite 
substantial. All of the plumbing, all of the wiring, all of the 
heating, all of the ducts have to be changed. The 
infrastructure equipment, the air conditioning equipment and so 
forth, has been fully installed.
    Mr. Serrano. Now that has all been paid for already?
    Justice Kennedy. That has all been budgeted, and we are 
within, the good news is, we are within budget.
    Mr. Serrano. That is the accomplishment.
    As far as the building and grounds, what types of 
maintenance issues do you anticipate, if any, will be 
problematic in future years? Have you looked at that?
    Justice Kennedy. Well, I was amazed that we have $122 
million to do the building, and then we came in for a 
supplemental appropriation for the roof. Hello? I mean, I 
thought we were refurbishing the building. So we find new 
things. But my understanding is that the Architect of the 
Capitol now has identified all of the work that will be done. 
We are in three phases. And the outside walkways, the roof and 
the lighting, I think, will be the end of it.

                      JUDICIAL SALARIES AND ETHICS

    Mr. Serrano. Okay. Let me move onto the whole issue of, the 
very serious issue, of judges' pay and ethics. I know that 
Chief Justice Roberts has been very vocal in support of raising 
the pay for federal judges. The House and Senate have both 
passed bills out of committee which provide pay increases, 
which I am sure you both support. I would like to discuss part 
of the Senate bill, which I believe the Judicial Conference 
does not support, which is the addition of provisions which 
seek to limit outside sources of income for judges. Do you also 
oppose the idea of limiting outside sources of pay for federal 
judges, and if so, why?
    Justice Kennedy. I have not looked at the text of the bill. 
Let me tell you what my understanding of the present law is: We 
cannot take outside income from any services at all other than 
teaching, and as to that, we are limited. It is 15 percent of a 
certain salary grade. And that amounts to about $25,000 a year 
for teaching, and this has to be at an academic institution and 
teaching in a formal course, in the conventional sense. I have 
done this myself since 1975 at least in Europe, and that is 
permitted with this limit.
    Other than that, we obviously can not take consulting fees 
or fees for services. And that is, to me, as it ought to be. 
There is a long tradition of judges teaching. We think it is 
helpful for the judge. I have taught since 1965. And the day I 
do not learn something, that is the day I will quit. The 
teacher learns as much as the students. That is why it is 
encouraged. And it is of tremendous, tremendous benefit. One of 
my former students is on the supreme court of Hungary. I have 
students in the Czech justice ministry. I have students on the 
courts around the country.
    The American law school system is not unique, but very 
rare. We have, with American law schools, a formal structure 
for the transmission of our whole legal tradition. My son went 
to law school. He learned everything that I had to learn, 
Marbury vs. Madison, McCulloch vs. Maryland, plus everything 
that was decided since. And this gives us a language. It is the 
language of the law. It is a great national resource. I can 
pick up a telephone and talk to a young person who is a couple 
of generations removed and a continent away. And I never met 
him; I have never been introduced to her, but I know them 
because we talk this common language. And this is what we 
preserve in the legal academy and in our law schools. And I 
assure you this language of the law which allows transactions 
to be negotiated without any intervention of the government, 
which allows the economy to move, is the envy of the world, and 
we participate in that by teaching.
    Mr. Serrano. Are you allowed to make appearances other than 
for purposes of teaching?
    Justice Kennedy. Not for pay.
    Mr. Serrano. Not for pay. Such as, I mean, every so often I 
will see you on----
    Justice Kennedy. Well, I talk to law school alumni groups. 
I talk to bar associations. I talk to associations of judges.
    Mr. Serrano. Okay.
    Justice Thomas, any thoughts on this issue of judicial pay 
and ethics?
    Justice Thomas. Well, I promise you I won't comment much on 
it. I just think it doesn't make much sense for people with 
that responsibility to be paid at the level of first-year 
associates. But with that said, I think there is great effort 
both in the House and the Senate to resolve that.
    With respect to the outside income issues, I agree with 
Justice Kennedy that teaching--and again, I did not come from a 
teaching background. But teaching has just been a wonderful way 
to think about the law in a different way with young minds that 
are inquisitive. And I think it is a win-win because the 
students are used to full-time professors. But then they have 
an opportunity to see people whose approach to the law is not 
academic; it is one of deciding the cases. They are the ones 
who put it together and write the opinions, and that exchange 
is enormously beneficial.
    That is the only context, other than writing books or 
inheriting money, that you can have outside income. It is very 
limited now as it is, and then it is a small percentage of your 
salary.
    It is my personal view. I don't speak on behalf of the 
Federal judges. I don't think it is helpful to propose a lot of 
additional limitations. There are already severe constraints, 
and I have found the Federal judges with whom I have worked to 
be just tremendous people. They are hard working. They enjoy 
what they do. I think they do it in the right way, disagree in 
the right way, criticize in the right way. And I just simply 
don't think that to give the impression that they are somehow 
doing something inappropriate is really a good message to send.
    I do think that it is a time, particularly at the income 
levels and with the workloads that the district judges have, it 
is time to encourage people to come into the judging 
profession, not to discourage them with more or further 
constraints or oversight.
    Mr. Serrano. Thank you.
    Justice Thomas. Again, I say that is a personal view.
    Justice Kennedy. I confined my answers simply to the 
outside income part.
    As to the salary issue, we have testified about this in the 
other committees. Just let me say, I think we are at a crisis 
point. It is my view that the Congress of the United States has 
a constitutional duty--at least in the small ``c'' sense--not 
an enforceable duty where we can sue, but a constitutional duty 
as a matter of loyalty to our heritage and to our 
constitutional traditions to insist on excellence in the 
Federal judiciary. The reason the judiciary of the United 
States was successful and influential in the most important 
civil rights decisions in the history of the Court was because 
it had gained respect, experience, credibility by trying civil 
cases and deciding civil cases.
    And, Mr. Chairman, we are losing our best judges. We can 
not attract them to begin with, and we can not retain them. You 
do not need to go to a management search firm to find qualified 
arbitrators. You look in the roster of Federal judges, and you 
tell the Federal judge in Albuquerque or Wichita or Duluth or 
New York: Now you are on the bench. How would you like to 
triple your income? You can do what you like the best. You can 
do arbitration. You can set your own schedule. You will have 
wonderful attorneys, fascinating cases, and you will earn 
triple the money.
    And if we do not get relief on the salary, there will be an 
exodus of judges, and they are our best judges. And the 
Congress simply has the urgent duty to correct this in order to 
save the excellence of the judiciary. The judiciary to which I 
have devoted my life is in danger of losing its best people. 
And it is critical.
    Mr. Serrano. I would agree. I would agree.
    Mr. Regula.

                   TEACHING THE ROLE OF THE JUDICIARY

    Mr. Regula. Thank you, Mr. Chairman.
    I am interested, you mentioned about going into the 
schools. Do you think the education system gives students an 
appreciation of the role of the judiciary in protecting the 
rights of citizens? When I look around, what happens in many 
countries where the people don't have that access to justice, 
do you think we do in our education system enough to apprise 
young people of the important role of the judiciary?
    Justice Kennedy. No, I do not think we do enough to explain 
to our young people the meaning of our history, our tradition, 
of our heritage of freedom. You do not take a DNA test to see 
if you believe in freedom. It is taught, and teaching is a 
conscious act. And we are in danger of having a generation that 
is simply ignorant of the principles that this country stands 
for and its history. You cannot preserve what you do not 
understand. You cannot defend what you do not know.
    Mr. Regula. We allocate funding here to the Treasury 
Department to do education programs for young people to deal 
with their finances. Should we be doing something like that for 
the judiciary?
    Justice Kennedy. Well, I think there is a systemic problem 
in the teaching of civics. Civics is generally taught by the 
person that teaches drivers ed, with a similar result, in my 
view. And I think we have to give quite careful attention to 
the way and the substance in which history is taught. The best 
teaching is sometimes lateral. It is by indirection. The way to 
reach a student is to make him think you are teaching about 
something else. And suddenly he or she learns it. And that is 
the right way in my view to teach civics. Washington 
surrendering his sword at Annapolis is the classic example of 
separation of powers. It is brilliant. The students do not 
understand that.

                    POLITICIZATION OF THE JUDICIARY

    Mr. Regula. Well, it is no doubt a challenge. Former 
Justice O'Connor had a recent article on politicization--it was 
in Parade Magazine--a politicization of the judiciary because 
in many jurisdictions, judges have to run for election. 
Therefore, they have to raise money. They have to respond to 
policy questions in the process. Do you have that same concern 
about the way in which our--it is not Federal--but State judges 
and State judiciary systems are created and maintained?
    Justice Kennedy. The Court, I do not think, has a 
monolithic or a unified view on this. I am just not sure where 
my colleagues stand. It is very difficult to keep up with 
Justice O'Connor in retirement. I have not read her latest 
article. But, look it, there is nothing more important than the 
independence of the judiciary.
    Mr. Regula. I agree.
    Justice Kennedy. And 90 percent of the caseload is in the 
State courts, and almost all State Court judges, and justices, 
are subject to some form of election. This dates from Andrew 
Jackson. And when you have a society where judges have the 
power that they do, I do not think you are going to change it. 
I think State judges are going to be elected. In California, 
the State judicial system is bigger than the Federal system. If 
you suddenly said they all had to be appointed for a long term 
of years or for life, you would have to have a whole new 
selection process that just would have to be made from scratch. 
And if you have Federal courts that are not elected, you at 
least have a judicial body that can decide constitutional 
issues without election.
    Now, as you know far better than I, elections cost money. 
And the idea that judges have to raise money is a matter of 
great, great concern. In California, where the ballot is very 
large, people tend to vote ``no'' on things they do not 
understand. And if you have a good judge that is under attack, 
he or she knows that going in, because people do not pay any 
attention to it, he or she is going to get about a 35 or 40 
percent vote going in. And so I am not quite sure what the 
answer is.
    When I was growing up in California in the 1950s and the 
1960s, if there was a good judge that was under attack, the bar 
association would defend that judge. Now we have plaintiffs' 
bar, defense bar. We do not have a built-in defense mechanism 
for really good judges.
    I think we have to recognize that it is not going to 
change. So we have to take the existing system and try to make 
it work. And we have to use it as a way to educate the public 
on the qualifications for a judge, what it means to have a 
judicial temperament, what it means to have judicial character. 
And we can use these elections for a very, very important 
purpose, and that is to explain the meaning of the judicial 
function. And it seems to me that private organizations, the 
bar association, and civic groups should get together and have 
codes that are not State imposed but to rank candidates and to 
monitor them, their campaigns. And I think this could be a 
learning opportunity. I think it is visionary to think we are 
going to eliminate elected judges. And I have never talked to 
Justice Thomas about this subject. Maybe he completely 
disagrees with me.
    Mr. Regula. Justice Thomas, do you want to comment?
    Justice Thomas. Just briefly. Obviously, it is a problem. 
But I think that when people have an opportunity to express 
themselves about what we do, much of it has to do with their 
particular interests and outcomes in cases or in particular 
issues. And the judging is actually more of a process. 
Sometimes the outcome is for a person. It might be against a 
person. One judge may be more apt to have a more constrained 
view of statutory construction, and the other may have a more 
expansive approach. But it is usually more about the process, 
not an outcome in a particular case. You don't reach an outcome 
and work backwards.
    I think, unfortunately, when people look at judging and 
much of the commentary is based on outcomes, interests and 
outcomes, and people work backwards. So it is not surprising 
that the process of electing judges tends to be somewhat 
politicized. It would be as though we got to, for those of us 
who are big sports fans, got to elect the referees for, say, 
the Oklahoma-Nebraska game. Of course, I would elect a referee 
who would be partial to Nebraska, and those who would like a 
different outcome would elect one who has made good calls for 
Oklahoma. Well, neither of those approaches is consistent with 
good refereeing, because you just simply want the referee to be 
fair, and I think that is what judging is about. You want a 
judge to be fair and conscientious and ethical; not to give me 
the outcome I want.
    I think that is hard when you try to translate that into 
sort of a political campaign of some sort. And it may be 
expecting too much. I don't know.
    Mr. Regula. Well, it certainly buttresses the wisdom of the 
Founding Fathers and the lifetime appointments.
    Justice Thomas. Well, I think so, too.

                         SUPREME COURT WORKLOAD

    Mr. Regula. One other question. I notice your caseload is a 
little bit lower this year. Is there any particular thing you 
attribute that to?
    Mr. Serrano. They need to take up my Presidential case.
    Mr. Regula. They might have time for that one. We keep 
reading that society has become more litigious, and yet your 
caseload would seem to reflect there is certainly not an 
increase and maybe some decrease. Would you care to comment on 
that?
    Justice Kennedy. We ask ourselves this question and cannot 
find an answer. We have control over our docket. But we do not 
take cases just in order to look busy. There are some 
possibilities that should be considered. One, as I have just 
indicated, is some of the major civil cases are disappearing 
from the docket. They are going to arbitration. And it is 
disappointing to me that Federal courts are not seen as one of 
the purest, most efficient, most neutral, most fair fora for 
the adjudication of disputes that we can possibly devise, but 
it is not perceived that way. House counsel will tell me that 
they will advise their client, or outside counsel, that they 
will advise their client: You are right on the law, and you 
should win. And there will be a 20 percent chance that there 
will be an error that we can't correct, and you add that to the 
chances of a runaway verdict, do not go to Court.
    And that is not a happy state of affairs. But because so 
many of those cases are going to arbitration, the civil docket 
has shrunk somewhat. The nature of the cases in the system are 
changing. The tort cases, other than employment related, have 
almost disappeared from the Federal docket. Civil rights cases 
have taken their place. The criminal load remains very high.
    But the good news is that, in part because the courts are 
responsive to the decisions of the Supreme Court, we have been 
very efficient. The law is fairly well settled.
    Another source of work for the Court are new Federal 
statutes, a Bankruptcy Reform Act, the Glass-Steagall Banking 
Act. You have in this room a portrait of Representative 
Steagall, who sponsored the Glass-Steagall Banking Act. A new 
statute requires Federal decisions to clarify and to implement. 
And there have been no major new Federal enactments, I guess, 
since the Bankruptcy Reform Act, that have given the courts a 
lot of business. Also that takes around 2 to 3 years to get to 
us.
    Mr. Serrano. Thank you.
    You know, as you were speaking, I sort of did a 34-year 
review of my career as an elected official; 16 in the State 
assembly and 18 here. I remember when I started out, the issue 
was that the panels that appointed judges didn't seem to 
appoint any minority judges. So we felt at the time that the 
best shot we had was to register people to vote and then elect 
judges. And we did that. We were successful.
    And then as the years go on, the idea of a judge coming to 
me or a person coming to me and asking for political support to 
run just doesn't sit well with me. And then you see them at re-
election time years later being at an event that they really 
can only be at as a private citizen attending the event and not 
as a judge, because the rules--I mean, it gets so complicated. 
To use a bad pun, in my mind, the jury is still out on 
selection versus election because there is something that was 
missing when the bosses were appointing, and then there was 
something missing when folks have to come to me and ask for 
political support for something that is as important as the 
judiciary.
    Mr. Schiff.

                              JUDICIAL PAY

    Mr. Schiff. Thank you, Mr. Chairman.
    Thank you, Justices, for being here. We appreciate your 
time and your testimony. I wanted to ask one question of each 
of you if I could.
    On the issue of judicial salary, as you know, I have been 
for a long time an advocate of delinking our salaries from the 
judges and also improving judicial salaries so we can continue 
to track the best and the brightest in the legal profession, on 
the bench, and keep them there. And I am glad we have 
legislation that is moving. I wanted to ask Justice Kennedy, 
though, about some of the provisions. We made some compromises 
in the bill. While we delinked the salary, increased salaries 
by 31 percent, we also revised some of the retirement 
provisions. And in particular, I think they may be hardest on 
some of the magistrate judges who are in a different position 
than other members of the bench who don't have life tenure, 
can't go on the senior status and may have a bigger impact by 
changing the rule of 80 than other judges. So I wanted to ask 
if you had gotten feedback from magistrate judges or other 
judges about whether what we have done has a disproportionate 
impact on them as well as what feedback you might have or you 
received from your colleagues on lower courts about some of the 
proposed retirement changes.
    One of the things that we wanted to do as part of the 
compromise was incentivize judges to stay on the bench longer. 
And we had kind of a skewed system where we pay judges very 
little on the front end but gave them pretty good retirement on 
the back end which had the reverse incentive, in some respects, 
of encouraging judges to leave the bench early. But if you 
could, Justice Kennedy, share your thoughts on that.
    And Justice Thomas, I wonder if you could give us your 
thoughts, a few years ago, one of my colleagues, Judy Biggert, 
and I formed a bipartisan caucus on the judiciary to try to 
improve relations between the courts and the Congress. Justice 
Rehnquist at that time in his year-end report stated that he 
thought that the relationship between the two branches had 
reached a historic low. And what I wanted to get your sense of 
is, have things gotten a little better over the last couple of 
years? They seem to me to be a little better than at the time 
Justice Rehnquist wrote his report. But I don't know whether I 
am just fooling myself. So I would be interested to know the 
perception on the bench of how things are in terms of the 
relationship between the two branches of government.
    Justice Kennedy. Congressman, I have not studied the 
provisions of the bill affecting magistrates and retired 
judges. And in any event, our Judicial Conference of U.S. would 
have better insights about that than I, and I have not had much 
feedback from them.
    And as you recognize, and I think the way you phrased the 
statement was quite correct, we have senior judges and retired 
judges. The senior judges keep us afloat. A senior judge who is 
eligible for seniority, roughly the rule of 80, is required to 
take a one-third workload, and he or she has just one clerk and 
one secretary. They handle 18 percent of the Nation's judicial 
business. Most senior judges take almost a full load.
    I succeeded Charles Merrill, United States Circuit Judge 
from Nevada, on the Ninth Circuit. He told me when he left, the 
senior workload was greater than the regular workload when he 
got to the Court. And that has happened again since I left the 
Court of Appeals. A senior workload is now equivalent to what 
an ordinary workload was when I came. So our senior justices, 
senior judges are heroes and are very necessary. And that is 
why we can not lose them. That is why we can not have them wait 
until the day of retirement eligibility and then go out.
    Retired judges, this is a different context, and there is 
some concern about a retired judge receiving his or her full 
vested salary and making a lot of money, and there are some 
adjustments that are being considered there, and I think that 
is something that is fair for the Congress to look at.
    Mr. Schiff. Thank you.
    And, Justice, I had a chance, both as an Assistant U.S. 
Attorney and as well as a law clerk for the Federal District 
Court in L.A. For Judge Matt Byrne, to see what kind of work 
the judges and senior staff were doing. So I am well aware of 
how much of a load they are carrying.
    Justice Thomas.
    Justice Thomas. Congressman Schiff, I agree with what 
Justice Kennedy said with respect to the senior judges. I did 
not clerk or spend much time with the Federal judiciary until I 
went on the bench in 1990. And it is a wonderful group. Many of 
the senior judges carry tremendous workloads. Some travel 
around the country to help with the workload imbalances in 
other parts of the country, whether it is in California or 
central Florida, where they have just an overwhelming and 
difficult workload.
    With respect to your question about relationships between 
the judiciary and the other branches, particularly the 
legislative branch, I didn't have a strong sense before that 
the relationships were that strained. Chief Justice Rehnquist 
would have had a better sense than I did. One of the things 
that I do know is that our current Chief Justice is very 
optimistic about rebuilding and actually enhancing that 
relationship or those relationships. He has made it a priority. 
I think in his year-end report he reflected on that. And I 
think, quite frankly, he will be successful. He has the energy, 
intelligence, the demeanor, the attitude and the disposition to 
do that. And I think his efforts will benefit not only our 
Court but the entire country. And that includes the 
relationships with the other branches. So I am very optimistic, 
to the extent that there was a problem, that it will cease to 
be one in the future.
    Mr. Schiff. Thank you both.
    And, Mr. Chairman, if I could just comment very quickly, on 
the salary issue and on the retirement issue and, in 
particular, on the magistrate judge issue, if I could ask 
through you of the administrative office, you know, I would 
like to know feedback about whether they think perhaps we 
didn't fully consider the impact on the magistrate judges but 
also, you know, what feedback you are getting or they are 
getting from judges around the country in terms of the 
potential offsets if they leave the bench and earn a great 
income on their pension. And I would appreciate getting that 
feedback. And I thank you both for your testimony.
    Thank you, Mr. Chairman.

                    MOMENT OF SILENCE FOR THE TROOPS

    Mr. Serrano. Thank you.
    Let me just inform the subcommittee and the public that a 
few minutes ago on the House floor, we held a moment of silence 
as a part of a memorial that was held this morning for our 
troops. Notwithstanding how anyone feels about the war in Iraq, 
we honor their service. And we will now take a very short 
moment to bring our thoughts in honor, as a memorial to them 
and let the shortness of that moment not be any indication of 
the immense respect and admiration and love we feel for those 
who serve and those who we have lost.
    [Moment of silence.]
    Mr. Serrano. Mr. Bonner.

                         ELECTRONIC COURTROOMS

    Mr. Bonner. Thank you, Mr. Chairman. And thank you for that 
observation.
    If I could have just a personal moment of privilege here. 
My dad died when I was 13. He was very proud to be an attorney. 
He was proud to graduate from Georgetown Law School after World 
War II. And one of his most proud moments is when he passed the 
bar to practice before the United States Supreme Court, 
although he never had that opportunity. So I think if he were 
alive today, he would think that this is pretty special, that 
his son is allowed to question, not appear before the Supreme 
Court, but question two of its distinguished members. So thank 
you for appearing before us and giving us this opportunity.
    Just a quick question and then an invitation that you 
probably have never received before a panel such as this. But I 
will save that for later. The Court's fiscal year 2009 request 
includes $255,000, if I understand it, to equip one of its 
three courtrooms as an electronic courtroom. Could you describe 
in some detail how this electronic courtroom would be used and 
in as much as C-SPAN is covering today's hearing and I know 
this is a question that has come before different members of 
the Supreme Court before, what challenges would C-SPAN type 
coverage of the Court bring?
    Justice Kennedy. The electronic courtroom is something that 
I am not familiar with insofar as our Court is concerned. And I 
don't know if the Congressman is referring to a trial court in 
our general budget. Is it our Court we are turning into an 
electronic courtroom?
    Mr. Bonner. It may well be, not in the Supreme Court 
building. My understanding is it was in one of the Federal 
courtrooms. And I was just really--the broader question is, 
what unique challenges would C-SPAN coverage bring to the 
Supreme Court given that most Americans can watch with great 
comfort the legislative proceedings of the day and see the 
executive branch before the camera? But the Court remains 
somewhat of a mystery to most Americans.
    Justice Kennedy. Well, electronic courtrooms. I was 
involved in California in creating what was modestly called the 
courtroom of the future. But there are many things you can do. 
If jurors have pop-up TV screens, then they can all see the 
exhibit at the same time, and this speeds things along. Plus, 
we are in--and I tried, as a lawyer, I tried a couple of cases 
to see how it would work. At one key point, I asked the 
witness, did you see the victim at 10:00 that night? It was a 
key point of the trial. And everybody looked at the TV screen, 
not the witness himself, as if that validated the reality of 
it. I was amazed at that.

                        CAMERAS IN THE COURTROOM

    Switching over to cameras in the courtroom, I think that 
almost all of my colleagues--I can not ever speak with 
assurance of 100 percent--are very concerned that the 
legislature, that the Congress, would mandate televised 
coverage of our proceedings. There are a number of reasons for 
that. We teach something by not having televised hearings. We 
teach that we are judged by what we write and by what we 
decide. That is a very important lesson. Furthermore, I do not 
know any Congressman or Member of the legislative branch who 
has seen particular arguments that he or she thinks are flawed 
and that could be improved if we were under the scrutiny of 
national television. The attorneys and perhaps even the 
justices would feel at least the temptation to have that little 
bon mot or that little last word. And I do not want an 
insidious dynamic introduced into my Court that would affect 
the relations that I have with my colleagues. I do not want to 
think that one of my colleagues asked a question because he or 
she was on TV. I do not want that temptation to exist, and I do 
not want them to think that about me.
    The oral arguments are wonderful. A good oral argument is 
really like a discussion of a doctoral thesis rather than some 
big deal debate. We think that the dynamic is very sound, and 
we do not want to risk changing it by the introduction of the 
television.
    I am a teacher. I recognize that if you had an Oxford 
debate on this and you drew the affirmative, you could make a 
lot of points. We could reach the whole public. They could see 
the Court in action. But I think it would be unhelpful for the 
collegial relations that are so very important during that 1 
hour of argument. We think we should be entitled to at least a 
presumption of correctness and to some deference in determining 
how best to preserve the dynamic of the wonderful proceeding 
that we know as oral argument. We think that TV endangers that.
    Mr. Bonner. Justice Thomas, do you have a view on the 
televised Court?
    Justice Thomas. I have not been one of the champions for 
that. I just don't see how it would improve our processes. I 
think there is already too much activity in oral arguments, and 
I don't see where this would temper it in any way. One of the 
cases, and I think this is just sort of illustrative of some of 
the concerns, one of the cases that drew the most attention or 
considerable attention in the last few years was a case 
involving the probate exception to our jurisdiction. Now that 
doesn't immediately grab your attention; does it? Well, it 
grabbed quite a few people's attention, including the press, 
because it involved Anna Nicole Smith, precisely the wrong 
reason for being concerned or being interested in what we do. 
The issue itself was of substance, the probate exception; not 
the personalities. And I think the concern is that you begin to 
have a sort of a tabloid effect because of the personalities 
involved as opposed to the substance of the case. And that 
doesn't seem to help our processes.
    There are other concerns and other arguments, both for and 
against. But I think the additional concern is, who gets to 
make that decision? We look at our institution, and we have our 
own personal intimacy with the issues, with the processes, with 
the day-to-day activities. We understand it. And to the extent 
that that decision should be made, I think it is felt that the 
judiciary should make the call. But I don't think it would help 
our processes, and I think it raises some other concerns that I 
have that are not really worth going into now. But I come down 
on the side of thinking that it is not a good idea.
    Justice Kennedy. The Court has a time line, a chronology, 
an etiquette, a grammar, a language, a tradition that are 
different from the legislative branch. We are not better. We 
are not worse. We are different. And it seems to me that we 
should be entitled to the presumption of correctness in 
determining how best to preserve that dynamic and that 
distinction.
    Mr. Bonner. I appreciate both of your answers, and I think 
there are probably many people in Congress who would agree with 
you, especially, Justice Kennedy, about the point of trying to 
get the last word in. We don't do that here in the legislative 
branch. At the risk of my chairman and ranking member scolding 
me later and saying this is inappropriate, I can't pass up this 
opportunity. Some 45 years ago, a lady in my district, Harper 
Lee, penned a novel, ``To Kill a Mockingbird,'' that I think 
many law professors and judges around the country view as one 
of the great stories, although fiction, about a man named 
Atticus Finch each spring in Monroeville, Alabama, where Harper 
Lee was born and still resides. The people in that community 
put a play on for 2 weeks. So, Justice Thomas, I believe you 
and your wife like to travel by RV. We would welcome you and 
the entire Court to come to Monroeville and to see the men and 
women of that community. This was done at the Kennedy Center a 
decade ago by my predecessor. Justice O'Connor and I believe 
some other members of the Court came. It really is a special 
story to see local townspeople, not trained actors and 
actresses, show their hearts, emotions, by re-enacting that 
play. So at the risk of being chastised by the chairman and 
ranking member, let me extend an invitation to the Court.
    Thank you, Mr. Chairman.
    Mr. Serrano. As I hold the gavel in my hand, let me tell 
you that Mr. Bonner's invitation is one of the finer things 
that has happened in the committee this year. We are talking 
here about an American classic, and besides, I have other 
places I am inviting the Justices to soon.
    You know, one of the problems with labels in politics--
liberal, conservative, I am labeled a liberal--is that when you 
don't fall in line with what some people have labeled you as, 
they criticize you for that. Some of my colleagues for years, 
both here and in the State assembly, have not understood why I 
do not favor cameras in the courtroom. At first I said in the 
State assembly that in the poorest assembly district in the 
State--I now represent the poorest congressional district in 
the Nation, situated within the richest city on the Earth--some 
kids would see their moment on TV as the only way to be famous 
in that neighborhood. They would see the guy being accused of a 
crime on TV as some sort of a hero, and I opposed it then.
    Now that the world has changed and you no longer get your 
news from the newscast but from the talking heads on TV--I know 
that I am probably kidding myself in that enough information 
already goes out there, more than I know. But the whole idea of 
being able to have tonight's CNN, CNBC, FOX, you call it--left, 
right, center--be able to take a videotape of a 4-hour session 
of the Supreme Court and begin to attack members of the court 
for their questioning--``he is a liberal, he is a conservative, 
look where he is going''--I don't think that would serve us 
well. Maybe it is a train that has already left the station. 
Maybe it is something that even at this moment I know little 
about, and that there is already more being broadcast than I 
know. The whole idea that the kinds of issues that the Supreme 
Court deals with would be publicly scrutinized every night, 
with some of the language that is used on TV regarding the 
issues you have discussed, worries me and at moments it could 
scare me.
    And just for the record, I will get 15 calls from my open 
government friends this afternoon who say I have switched.

                            MINORITY HIRING

    To prove to them I have not switched, let me ask you my 
next question. An issue I have asked about every year you have 
come before me, and I think it is now about 10 years either as 
Ranking Member or Chairman of this subcommittee, and that is 
the issue of hiring of minority law clerks and other 
professional staff. What sort of progress is the Court making 
in hiring qualified minority clerks and other professional 
staff? Are there efforts to reach out to minority students in 
law schools to make them more open to serving as law clerks in 
the Federal court system. Do you keep statistics on these 
issues and, if so, would you be willing to submit them for the 
record?
    Lastly, in the last part of the discussion as I directed 
it, we were told that at times the problem with getting 
minority law clerks and minority staff is that the schools that 
we went to do not have that large a minority student body. And 
my suggestion was, well, like the old joke, ``Doc, it hurts 
when I do this,'' and the doctor says, ``Well, don't do that.'' 
So you know, go to other schools.
    What are your thoughts, have we made some changes? Because 
you talk about teaching and that is a powerful tool, but to be 
able to be within the judiciary as law clerks and be members of 
a minority community, that could have an impact on future 
societies like nothing we could ever think of. Your thoughts.
    Justice Kennedy. I think minority hiring is something that 
the Court keeps in mind. It wants to be very sure that it is 
open, it is receptive to minorities, that it knows the value 
that they can bring to the Court. Insofar as law schools, I 
think some of the top-ranking law schools that we often use as 
a pool for the selection of our clerks, although not 
exclusively, they do a very good job of getting minority 
candidates. A very good job. I have not looked lately at the 
completion rates, but minorities have a lower law school 
matriculation rate than other groups, than nonminorities. And 
so that somewhat diminishes the pool, but we are conscious 
about it.
    Mr. Serrano. Well, Justice Kennedy, with all due respect, 
that is what an effort is.
    Justice Kennedy. And that is why we make an effort.
    Mr. Serrano. Right. The fact of life is that there are less 
of some folks in law school, but that should not stop us from 
trying to recruit some of them. Although there is less of a 
black and a Hispanic population in the United States, it may 
not be soon, but that still doesn't mean someday we should not 
have a Hispanic member of the Supreme Court, notwithstanding 
the numbers.
    So I disagree with the argument that we are not producing 
enough folks while there are some highly qualified folks; there 
are Jackie Robinsons everywhere, ready to play and to play well 
and to produce, and Hall of Famers in every profession. And I 
think that the judiciary, because I take it so seriously and 
respect it so much, I want my community to share in it as much 
as anyone else. It is not always, as I said before, getting 
someone from my community elected a judge or someday someone 
being appointed to the Supreme Court; it is also having folks 
in the system, even if they don't stay there, that they leave 
and go back to private practice or whatever, but they have been 
there, they have that understanding and were part of that 
group.
    Justice Kennedy. Well, of course, a clerkship with us is a 
good ticket to private practice.
    Mr. Serrano. Yes, I would say.
    Justice Kennedy. There is no doubt about that. And we are 
quite aware of what this means to minorities. And sometimes the 
justices, in hiring, are competing with the same pool; and when 
there is an exciting minority candidate, you sometimes have to 
act very quickly to get him or her because the justices take 
them.
    Mr. Serrano. Any thoughts, Justice Thomas?
    Justice Thomas. Well, just one point. When you said 
Hispanic law clerks who happen to be Jackie Robinsons, I think 
Justice Kennedy is being rather modest. He did have a Hispanic 
law clerk who was a Jackie Robinson. His name was Miguel 
Estrada, who was extraordinary, and who is extraordinary by any 
measure.
    Mr. Serrano. He should have bragged about that. That is 
totally proper.
    Justice Thomas. Well, I will brag for him. He is more 
modest.
    I take a different approach to hiring law clerks. I said 
that a law school, for example, that I don't hire female law 
clerks. I continue to just hire the best law clerks. But about 
half turn out to be, or 30 percent or 40 percent, turn out to 
be women. I wind up with minority law clerks.
    I continue to think that you don't have to look at one 
prescribed pool, it could be broader. I still think that there 
are wonderful kids in the non-elite schools--not all of them, 
it may not be very deep--but there is a lot of talent out 
there. But we don't have an NFL combine-type situation to sort 
out all that talent.
    My clerks next year will come from Rutgers, from Creighton, 
GW and George Mason. And I think it will be as outstanding a 
class of law clerks as I have ever had. Mostly it is safer to 
go with the Ivys and the elite law schools, but there is talent 
out there.
    I think when we say ``minorities'' we should be a little 
bit more precise. I think it is basically Hispanic and black. 
There are tons of Asian law clerks. If you look at percentage 
population, there is fluctuation with female law clerks, but I 
think there is always a fairly substantial number and they are 
a lot easier to find. And they are outstanding performers, so 
you do not have to dig very deep. But the point is simply that 
some burden should be on the law schools, too.
    Mr. Serrano. Right.
    Justice Thomas. Because we take the products that they 
produce. And if they don't produce the product, then it is just 
like anything else. The availability simply isn't there. We 
don't recruit the law students. We don't educate the law 
students. We don't determine who is on Law Review. We don't 
teach them in a way that they can become the elite in their 
class. We don't do any of that. We take the end products--I 
think much of the burden goes there, not to the judges who 
consume the product of the law schools.

              RELEASING AUDIO TAPES AND OTHER INFORMATION

    Mr. Serrano. Thank you. I just have one more question for 
the Justices. I would like to tell the committee that we will 
be having votes soon. It is not my intent to keep the Justices 
here much longer.
    This follow-up issue of the TV cameras, there are also the 
issues of releasing audio tapes on the same day. Do you see 
that as an alternative to televising? Is that something we 
could tell folks, well, you are going to get this or you could 
get this instead of the televising?
    Justice Kennedy. We do that. We release the audio I think 
within--immediately when the argument concludes, and in 
important cases where not everyone can get into the courtroom. 
I think that is 10 a year; only 3 a year.
    Mr. Serrano. And by the way, I would like to agree with Mr. 
Bonner that we never grandstand or anything because we are on 
TV. In fact, the fact that I will be in the Speaker's chair 
from 2:00 to 4:00 today, and I am wearing a green shirt and 
green tie, has nothing to do--there is no relationship to 
Monday being St. Patrick's Day, I assure you of that.
    Mr. Regula.
    Mr. Regula. Well, my question is, is all the information 
put on the Web--the briefs, the arguments, everything? We talk 
about having TV in the courtroom, but isn't there complete 
availability of information for the public through the 
Internet?
    Justice Kennedy. Yes.
    Mr. Regula. Including the briefs that are filed.
    Justice Kennedy. And all the amicus briefs.
    Mr. Regula. So it is all out there for anyone who is 
interested. I think that is an important point as part of our 
open government, and that a person who really is interested has 
access is the important point I would make.

                             COURT SECURITY

    The other question we haven't talked about, security at the 
Court. Are you comfortable with the way that--the security 
programs established at Court buildings and so on?
    Justice Thomas. That is an excellent question. Again, when 
I first went on the Court--which seems to be forever now--
almost 17 years ago, we had very little focus on security 
issues. I can say that now; that time is long gone. But I think 
the Court does an excellent job. Our officers are well trained, 
we are well staffed, there is quite a bit of concern about the 
Justices when they are away from the Court, the U.S. Marshals 
have done a fabulous job as we have traveled around the 
country.
    So I think at present, the security concerns that I had in 
the past are a part of the past and that they are doing an 
excellent job. And the Court is in a good position to make sure 
that we are secure and that we are safe.
    Mr. Regula. So you are comfortable with the arrangements 
that are there and way in which it is delivered in security 
services?
    Justice Thomas. I am very much so. And should there be any 
concern, we would be back to address those. But I think in the 
past, with this committee's assistance and staffing and 
training in security issues for us personally, you have been 
enormously responsive. Even in the outside, much of the 
maintenance we are talking about outside the building, there 
are security issues there; there are barriers around the Court, 
the building, there are blast-proof materials, all sorts of 
things that you have made possible through the budget process 
here and in our discussions.
    So there may be concerns in the future, but presently I 
think things are as they should be. The Marshal and her staff 
have done a very good job.

                         SUPREME COURT VISITORS

    Mr. Regula. One of the unique things, of course, of our 
society is the openness for visitors at the Capitol. The halls 
are jammed; many days people are visiting. I don't find that to 
be the case when I visit capitols of other countries. Do you 
get much in the way of public visitation at the Court, people 
who just come in to look around and to see or maybe sit in the 
audience before a hearing?
    Justice Thomas. I think there is a steady stream. I think 
our highest year was 1999 when there were over 800,000 people--
--
    Mr. Regula. Really.
    Justice Thomas [continuing]. Who came to the Court. There 
are all sorts of public events and there are still up around 
70,000 who come to the Court each year. There is no shortage of 
visitors. I think there is some tempering of that and some 
cooling of that because the building is under construction.
    Mr. Regula. I understand.
    Justice Thomas. As soon as that is over and you have the 
Visitor Center here opened--and right after 9/11, of course, 
things went down, but I think it will all come back. That 
building is very accessible, you have an enormous amount of 
traffic. And the thing that is wonderful about it for most 
people, I know for me, that is the Supreme Court that I have 
always known. It is a monument to our Federal judicial system. 
I think a lot of people, even if they do nothing more than take 
pictures in front of it, want to be there. I do believe that 
that traffic will continue. There are lots of visitors. I think 
our staff does a great job, a wonderful job of securing the 
building in spite of the open access of the building.
    Mr. Regula. I would be curious: If you were a civics 
teacher in high school, could you write to the Court and ask 
for material on how the Court works, how the system works, to 
be used with your students?
    Justice Thomas. Oh, I even--we have all sorts of brochures 
and material. There is material on the Internet. I know I get 
regular requests for Constitutions and for materials on the 
members of the Court, and I send those brochures out.
    I think, again, going to your point about the accessibility 
of information, whether you want to know about cases, 
decisions, history of the Court, it is all there. Yes, quite 
frankly, there is----
    Mr. Regula. Is that part of the education process?
    Justice Thomas. Yes, that is right.
    Mr. Regula. Mr. Chairman.
    Mr. Serrano. Thank you. As I suspected, the votes are 
coming so our last set of questions will come from Mr. Schiff.

                      SUPREME COURT JURISPRUDENCE

    Mr. Schiff. Thank you, Mr. Chairman. I have just two 
questions, one very narrow that probably only a lawyer could 
ask or be interested in the answer. But I am interested so I 
will ask it anyway.
    Mr. Serrano. Are you a lawyer?
    Mr. Schiff. Guilty.
    The other, I hope we have little more broad interest.
    First narrow question is just curiosity in terms of Supreme 
Court jurisprudence. And that is, over the years the opinions 
seem to have gotten longer and longer. And some of the greatest 
Justices that have ever sat on the bench often wrote short 
opinions with great effect. I am curious, is the quality of the 
opinions going up with the length of the opinions? Or is the 
length necessary? Does it add? Is it that the issues are more 
complicated than they used to be, or we are just more talkative 
than we used to be?
    And then the other question I have is I know that you are 
very active in terms of conferring with judiciaries around the 
world, which I think is an extraordinarily important part of 
your job. I wonder if you could share any thoughts you might 
have on anything that we can do in the Congress to further that 
work. I think it is an important element of democracy building. 
If you don't have the rule of law, it is hard to have anything 
else follow from that.
    So I would be interested in your thoughts on both those 
questions.
    Justice Kennedy. On the length of opinions, it might have 
something to do with the length of the statutes.
    Mr. Schiff. Oh, it is our fault?
    Justice Kennedy. I am not sure the opinions are that much 
longer. I do think that the dissents and the majority seem to 
meet each other better. And that is an anecdotal, not 
statistical impression, because our reduced caseload enables us 
to adjust the opinions so that we are responding back and 
forth. I think they are better. I think they are more focused.
    Mr. Schiff. The problem is you have too small a caseload. 
You have to fit all those words in nonetheless, so you have to 
lengthen the opinions.
    Justice Kennedy. I will hit the button. I am not sure that 
they are longer.
    Mr. Schiff. Well, perhaps not from 10 years ago. But it 
seems like when you compare it to 30 years ago or 40 years ago 
the opinions were quite a bit shorter, maybe literary in tone 
and less technical, certainly a lot less footnotes. I am 
speaking on behalf of law students everywhere who are 
suffering----
    Justice Kennedy. I have not used footnotes in years.
    Mr. Schiff. What is that.
    Justice Thomas. He doesn't use footnotes.

                     INTERNATIONAL JUDICIAL VISITS

    Mr. Schiff. Okay. In terms of the international question?
    Justice Kennedy. International visits work two ways. We go 
there, they come here; both are very good. If you go to the 
Continental courts, typically there are, as you know, three 
Supreme Courts, the Supreme Administrative court, Supreme 
Constitutional Court and Supreme Court of General Jurisdiction, 
which means you have three dinners, three lunches, three 
speeches to give. But this is an era in which democracies 
worldwide are trying to establish an independent judiciary on 
our model.
    I was visited not long ago by the Chief Justice of Nepal, a 
country we do not think about very often. They had just 
undergone the tragedy where the Crown Prince committed a murder 
and then shot himself. There was a civil insurgency. This 
wonderful Justice came to visit, and he was basically trying to 
hold that country together.
    Judges check each other out. This was a learned, erudite, 
quiet, thoughtful, wonderful man. I said, ``Thank you for 
visiting the Court,'' and I took him out, down the steps. I 
said, ``What can we do, Justice, to help your country?'' And he 
said, ``You have to keep doing what you do. You are a model to 
the rest of the world.''
    Well, that was a gracious remark to make me feel good as 
the host and to recount for my colleagues, which I did. But it 
occurred to me that we are not doing enough. There are some 
real judicial heroes out there; in the State court system, 
including the elected judges, and in the international realm. 
And the verdict is out on whether some new countries, 
particularly in Eastern Europe, are going to be able to be 
successful with an independent judiciary, particularly in 
Russia. And we have much more work to do. It is very important.
    Mr. Schiff. Thank you. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Well, as an Appropriations Committee it is our role to 
suggest and put together the budgets for different agencies, 
and you know that this committee always respects the work that 
you do, and your budget request is always taken seriously. In 
fact, some would say that you get what you ask for. And it is 
our intent to make sure that you have what you need. It is 
always an honor for us, notwithstanding my uncertainty at times 
with the idea of you coming before us. You alleviated some of 
that concern, Justice Kennedy, by saying that the separation 
doesn't mean we can't talk to each other. Separation of power. 
So we respect that.
    And once again on behalf of the committee and all members 
of the Appropriations Committee in the Congress, we thank you 
for your service to our country. We thank you for your work. 
And all I can personally say is if you have to rule on McCain, 
make sure you include me. Thank you so much.
                                         Wednesday, April 30, 2008.

                          DISTRICT OF COLUMBIA

                               WITNESSES

ADRIAN M. FENTY, MAYOR, DISTRICT OF COLUMBIA
NATWAR M. GANDHI, CHIEF FINANCIAL OFFICER, DISTRICT OF COLUMBIA
VINCENT C. GRAY, CHAIRMAN, COUNCIL OF THE DISTRICT OF COLUMBIA

                  Chairman Serrano's Opening Statement

    Mr. Serrano. The subcommittee will come to order. Good 
afternoon.
    Today the subcommittee will hear testimony on the fiscal 
year 2009 budget for the District of Columbia. I would like to 
welcome Mayor Adrian Fenty back to testify before this 
subcommittee. The subcommittee also welcomes back the Chairman 
of the District City Council, Vincent Gray, and the Chief 
Financial Officer of the District, Dr. Natwar Gandhi.
    With the new leadership in the District of Columbia, this 
past year and a half has brought much excitement and 
anticipation for the residents of this city. Issues such as 
school reform and a slowing economy continue to make headlines 
in this region. I myself have been able to visit so many of the 
places here in Washington, D.C., but most exciting of its new 
attractions for someone like me is the new Nationals baseball 
stadium.
    I am aware that the fiscal year 2009 budget is currently 
under review by the City Council and will not be received by 
Congress for at least another month. The Mayor's request is for 
a total of $9.9 billion, including $6.1 billion in local funds, 
nearly a $141 million increase over 2008 levels.
    For fiscal year 2009, the District requested $155 million 
in direct federal payments. Notable increases over the fiscal 
year 2008 enacted levels are for the Water and Sewer Authority, 
emergency planning and security, and for the D.C. schools. The 
increase for D.C. schools includes a one-time payment of $20 
million to jump-start public school reform.
    I look forward to hearing more today about your plans in 
this area. As I have stated on previous occasions, I am honored 
to have the opportunity to work with the D.C. government to 
help it achieve its objectives. Since assuming chairmanship of 
this subcommittee, it has been my goal to ensure that Congress, 
specifically the Appropriations Committee, plays a supportive 
role in the District rather than an intrusive role as has been 
the case in years past.
    As a person who was born in Puerto Rico, a territory which 
shares the District's condition of undefined political status, 
I sympathize with your plight and offer my support for full 
representation in Congress for D.C. residents.
    It is nice to see all three of you again, Mayor Fenty, Dr. 
Gandhi and Chairman Gray. I thank you for your hard work and 
dedication to the city. It truly seems that there is a new 
energy in this city, and I credit your combined leadership. I 
know that my staff finds your staff members very open and easy 
to work with. I hope that relationship continues until the day 
when I achieve my goal, which is putting myself out of business 
when it comes to overseeing the District of Columbia.
    At this time I would also like to recognize the man that we 
already paid tribute to and who is such an important ally in 
this cause, and who shares totally my concern, my respect and 
my desire for the best possible immediate and long-term future 
for the District of Columbia, our Ranking Member, Mr. Regula. 
We were speaking about this being his last hearing on this 
committee.
    All your other committees finish their hearings, too?
    Mr. Regula. Uh-huh.
    Mr. Serrano. So how many years, 30----
    Mr. Regula. Six.
    Mr. Serrano. Thirty-six years in Congress. I think he had a 
little bit more than a couple thousand hearings; don't you 
think? And here he is ready for this final one.
    Mr. Regula.

                     Mr. Regula's Opening Statement

    Mr. Regula. Thank you, Mr. Chairman. It is, of course, with 
regret that I leave some of these assignments. I have had a 
great interest in this city. I even volunteered for the 
subcommittee years ago when no one wanted to take the D.C. 
Subcommittee. I went to Silvio Conte and said, Silvio, I will 
take it if I don't have to give up something else. And I did. 
And I worked with--who was from California? It was chairman--I 
can't think of his name.
    Mr. Serrano. Dixon.
    Mr. Regula. Yeah, Julian Dixon, who had the same dedication 
to this city that this Chairman and I share. And I think we 
want to make it the shining city on the hill that all of 
America can be proud of. And, Mayor, I think you and your team 
are working in that direction.
    I have said over and over again the most important thing to 
the future of the Nation is education because we have to build 
on that to achieve all the other desirable goals. And you have 
taken on the responsibility with your team for the education 
system. And with Michelle Rhee's enthusiasm and your great 
support, I think you can really make a difference in the lives 
of these children. And the greatest legacy that all of you will 
leave is to improve the education system of this city, and we 
will all take pride in it.
    So I look forward to your testimony. I congratulate you for 
all you and your team have already accomplished on behalf of 
the people of Washington.
    Mayor Fenty. Thank you.
    Mr. Serrano. Before we begin testimony, I would just like 
to make two lighter comments that are very important to me. 
First of all, Mayor Fenty, I don't think it was smart of you on 
the day when you come for your budget here to run faster than 
me this morning in that race. You could have, you know--but my 
communications secretary came in ahead of you, so we are even. 
But that wasn't fair.
    And secondly, on a real light note, but important to me, I 
have to be one of the luckiest men on earth, not only because I 
serve here and because I have health, but because my residence 
is two city blocks from Yankee Stadium and 17 walking minutes 
from Nationals stadium. Life is good.
    I now recognize Mayor Fenty, followed by Chairman Gray and 
Dr. Gandhi. I would like to remind you to keep your testimony 
down to 5 minutes. Your full written statements will go in the 
record, but the ability to have you speak only for 5 minutes 
will allow us to grill you and put you through all kinds of 
problems later.

                        Mayor Fenty's Testimony

    Mayor Fenty. Thank you very much, Mr. Chairman, Ranking 
Member Regula, and distinguished committee members. It is a 
pleasure and honor to be here today to speak to you on behalf 
of almost 600,000 residents of the District of Columbia about 
the proposed fiscal year 2009 budget, which is entitled Getting 
the Job Done.
    As you mentioned, I have provided written testimony that 
describes our local and Federal funding priorities in more 
detail, but in the interest of brevity, I will offer some 
highlights here today and then would be happy to answer any 
questions.
    The District's budget represents $5.7 billion in local 
funds and about $3.7 billion in Federal grants for Medicaid, 
education, transportation and other initiatives. This is our 
thirteenth consecutive balanced budget and it limits the growth 
of local fund expenditures to less than 1 percent at a time 
when the national economy calls for fiscal restraint.
    More than ever my administration will economize the way the 
District government works. Typically, the starting point for a 
proposed budget is the previous year's funding level for 
services, plus increases for salaries, for fixed costs and for 
financing. This alone, however, would have reflected a 5.7 
percent growth in the District's budget.
    Instead, by building our budget from the ground up, by 
scrubbing out every unnecessary position and finding ways to 
serve our citizens more efficiently across the government, 
again the fiscal year 2009 budget limits local funds growth to 
less than 1 percent, specifically .07 percent, the smallest 
amount of growth in approximately a decade as proposed.
    At the same time we continue to propose tax relief for low-
income residents and for small businesses. For example, this 
year's budget proposal includes changes to the District's 
earned income tax credit, which would effectively eliminate 
income taxes for families making $25,000 a year or less.
    Education is the key to the District's future, as both the 
Chairman and Ranking Member mentioned. No single priority of 
this government is more important than education. I am 
extremely grateful for this subcommittee's work with us to make 
radical improvements in our public schools. I particularly want 
to acknowledge you, Mr. Chairman, and also Ranking Member 
Regula, for your interest and support. I know you are aware of 
the dramatic changes since Chancellor Rhee took over the system 
last June in 2007. Today we come to you to ask for your support 
for $38 million in Federal funds that are part of the 
President's budget request, which we believe will significantly 
enhance our reform efforts.
    In addition to education funding, this subcommittee has 
made many investments in other key programs in the past. At our 
request, the President's fiscal year 2009 budget contains 
funding for several of the same items, specifically 
reimbursement for emergency planning and security costs, 
continued support for our new local forensics evidence 
laboratory, more funds to renovate public libraries, and 
improvements to the combined sewer system to help protect the 
Potomac and Anacostia Rivers from pollution. Mr. Chairman, you 
are right, we both got a bird's-eye view of how much the 
Anacostia River needs that protection during the otherwise very 
successful Capital Challenge this morning. I hope you will 
continue to support these important projects, and I am happy to 
discuss any of them further with you.
    In conclusion, as the District's Mayor, and as a lifelong 
resident of this great city, I view Congress as a critical 
partner in our work to improve the lives of District residents 
and the experience of visitors to the Nation's Capital. I look 
forward as Mayor to continuing to work with all of you on our 
mutual goal of making Washington, D.C., not only a Capital 
City, but a world-class city without equal anywhere throughout 
the would.
    This concludes my prepared remarks, and I am happy to 
answer any questions.
    Mr. Serrano. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.092
    
    [GRAPHIC] [TIFF OMITTED] T2830A.093
    
    [GRAPHIC] [TIFF OMITTED] T2830A.094
    
    [GRAPHIC] [TIFF OMITTED] T2830A.095
    
    [GRAPHIC] [TIFF OMITTED] T2830A.096
    
    Mr. Serrano. Chairman Gray.

                       Chairman Gray's Testimony

    Mr. Gray. Good afternoon, Chairman Serrano, and Ranking 
Member Regula and other members of the Committee on 
Appropriations Subcommittee on Financial Services and General 
Government. I am pleased to speak to you today about the 
District's appropriations and other operational items.
    As the Mayor has indicated, he has proposed an overall 
budget for fiscal year 2009 of nearly $10 billion, which 
represents an increase of $200 million, or 2.1 percent, above 
the fiscal year 2008 approved budget of $9.2 billion, or nearly 
$10 billion also.
    The proposed local budget is $5.7 billion compared to last 
year's or the current year's $5.62 billion, and, as the Mayor 
has indicated, a very small \7/10\ of 1 percent increase. 
Again, as the Mayor has indicated, it reflects our efforts to 
try to control costs.
    The Council has enthusiastically joined with the Mayor and 
is completely committed to improving our educational system in 
the District of Columbia and, of course, the performance of our 
students. The Council also has heartily supported education 
reform and is at the threshold of finalizing legislation that 
will make prekindergarten available to every 3- and 4-year-old 
in the city whose families want them to be in such a program.
    The District also is focused on improving its library 
system. We have committed $75.6 million in local funds through 
fiscal year 2009 toward the improvement of seven branch 
libraries and $22.3 million in fiscal year 2009 to restore and 
modernize the historic Georgetown branch library. I ask that 
you support the President's proposal for a payment of $7 
million.
    The Council supports the continuation of the Federal 
payment for school improvement. Because of the success of this 
education strategy, the President has increased the three-
sector funding for fiscal year 2009 to $54 million. Next year 
the President has proposed an additional $20 million to help 
jump-start public school reform. I ask that the committee 
include both of these funding proposals in its bill.
    The Tuition Assistance Grant Program has been very 
successful since its inception 7 years ago. I want to thank the 
President for including full funding for the program in the 
fiscal year 2009 budget, and I ask the committee to approve the 
$35.1 million included in the President's budget.
    Last year this committee helped us to enhance our attack on 
HIV/AIDS in the city by removing the prohibition on the 
expenditure of our local funds for needle exchange programs. I 
want to thank you, Chairman Serrano, and the committee for this 
and ask that you continue to exclude this former general 
provision from our appropriations bill.
    The District of Columbia is seeking an increase in the 
match rate for our foster care and adoption programs to make it 
equivalent to the Medicaid program. The match rate for foster 
care and adoptions in other jurisdictions across the country is 
at the Medicaid match rate. The President's fiscal year 2009 
Federal Department of Health and Human Services budget 
references the proposal for this increase. I ask you for your 
help in obtaining inclusion of this increase in the fiscal year 
2009 HHS budget.
    The President has allocated $5 million in his 2009 budget 
for the Consolidated Forensic Laboratory and $5 million for 
reimbursement to the FBI for laboratory work. The overall costs 
for the laboratory is $219 million. The District continues to 
seek a 27 percent match of the total cost by the Federal 
Government.
    The fiscal year 2009 request for protection and security 
for the Federal enclave includes costs for planning and 
security related to the Presidential inauguration. I ask that 
the committee fully fund the planning and security costs 
associated with the Federal presence and provide assistance in 
obtaining reimbursement for the executive transport/escort 
service the city provides for the President, Vice President, 
First Lady, as well as the frequent deployments of fire and 
emergency medical services equipment to helicopter arrivals.
    I also request the support for two bills currently pending 
in the House, H.R. 733, the District of Columbia Budget 
Autonomy Act of 2007, introduced by Congresswoman Norton and 
Representative Tom Davis; and H.R. 1054, District of Columbia 
Legislative Autonomy Act of 2007, introduced by Congresswoman 
Norton. Passage of these two bills will avoid the delays the 
current congressional process creates and will assist the 
District in operating more efficiently and effectively.
    I also would like to end my testimony by thanking you and 
the other Members of the House for your support of and passage 
of H.R. 1905, District of Columbia House Voting Rights Act of 
2007. I ask your continued support by helping the District gain 
approval of this bill in the Senate. This is vitally important 
to the District of Columbia citizens, both Republican and 
Democrat. As leader of the free world, America should be an 
example by providing all citizens the right to full 
citizenship.
    In closing, I would like to ask you to pass this year's 
budget request in time for the start of our new fiscal year 
without riders.
    I thank you, Mr. Chairman and the other members of the 
committee for this opportunity to share our thoughts, and I 
will be happy to answer any questions you may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.097
    
    [GRAPHIC] [TIFF OMITTED] T2830A.098
    
    [GRAPHIC] [TIFF OMITTED] T2830A.099
    
    [GRAPHIC] [TIFF OMITTED] T2830A.100
    
    [GRAPHIC] [TIFF OMITTED] T2830A.101
    
    [GRAPHIC] [TIFF OMITTED] T2830A.102
    
    [GRAPHIC] [TIFF OMITTED] T2830A.103
    
    [GRAPHIC] [TIFF OMITTED] T2830A.104
    
    [GRAPHIC] [TIFF OMITTED] T2830A.105
    
    [GRAPHIC] [TIFF OMITTED] T2830A.106
    
    [GRAPHIC] [TIFF OMITTED] T2830A.107
    
                         Dr. Gandhi's Testimony

    Mr. Gandhi. Thank, you Mr. Chairman, Chairman Serrano, Mr. 
Regula, and members of the committee. I am Natwar Gandhi, Chief 
Financial Officer for the District of Columbia government.
    This has been an exceptionally challenging budgeting and 
planning cycle for the Mayor. This February our revenue 
projections indicated a decline from the December revenue 
estimate of about $62\1/2\ million for fiscal year 2009. For 
the Mayor the greatest challenge was to control spending in 
light of a drop in projected revenue. The resulting proposed 
budget is, for the 13th consecutive year, a balanced budget.
    Since the budget was submitted on March 20th, the Council 
and Chairman Gray have already been hard at work. We will 
continue to work diligently with everyone in this collaborative 
process.
    Our strong financial standing, with the $281 million 
surplus in 2007, is a testiment to the steadfast commitment of 
the District's elected leaders to sound fiscal management. This 
steadfast commitment has resulted in a $2 billion turnaround, 
from $518 billion deficit to a billion and a half positive fund 
balance.
    As you can see here in this chart, Sir, it is important to 
note that of that $2 billion increase in fund balance, nearly 
half was accumulated since the end of the Control Period. 
Indeed our turnaround from junk bond status was faster than any 
other city that has undergone a similar period in financial 
crisis, including New York, Philadelphia, Cleveland and 
Detroit. We have had a fund balance that is still among the 
highest in the Nation, substantially improved bond ratings, and 
a well-deserved respect in the financial market.
    This time last year the economic outlook for the District 
was similar to that generally forecast for the Nation as a 
whole; no major disruptions and steady growth in employment, 
wages and income, but at rates slightly below those experienced 
in 2006.
    This year, however, the outlook is far less positive. It 
reflects the downturn in the Nation's economy and the far-
reaching effects of the troubled mortgage and housing market. 
In the past 3 months the national and the District economies 
have slowed down. Indeed, some financial observers, including 
the Federal Reserve Chairman, are concerned about possible 
recession in the near term.
    We have observed the slowing in District home sales 
activity as well as the stock market and the overall base of 
economic activity. This slowdown, in combination with recent 
legislative changes, has resulted in an estimate of total 
revenue less than we expected as of last December. Similarly 
for our May revenue estimate, we are closely monitoring April 
tax collections and the evolving economic picture for any signs 
that the revenues are growing even more slowly.
    There are two issues that I do need to raise before I 
conclude, and those relate to our debt burden and tax burden. 
The District faces a wide variety of infrastructure needs 
facing great demands on its Capital Improvements Plan and the 
resulting borrowing. It is difficult to compare the District to 
other jurisdictions, because it is responsible for the multiple 
functions that normally are associated with those of a city, a 
county, a school district and a State.
    Using the ratio of total tax-supported debt to population, 
the District is dramatically out of step with other large 
cities. Compared to the District's $10,000 per capita debt to 
New York City's less than 7,000, Chicago's 4,000; Boston is 
1,800, and Baltimore is around 1,200. This leads to the broader 
issue of the challenge of addressing the District's 
comparatively high spending needs with a restricted tax base.
    The District, as the urban center of a large metropolitan 
area, houses a disproportionately large share of very poor and 
needy people. The District's overall poverty rate of 19 percent 
and child poverty rate of 33 percent are among the highest in 
the Nation, and more than three times the comparable rates 
across the neighboring counties. Unlike other urban 
jurisdictions, the District cannot pool resources across the 
areas from the same State to serve its urban poor.
    In this environment of high expenditure needs, the revenue 
challenge is equally great. Now, here is where the U.S. 
Congress plays an important role. Kindly permit me to briefly 
note two areas that merit continuous attention. Both go to the 
unfunded mandates that restrict the District's own taxing 
power. One, the prohibition on taxing the income earned by 
nonresidents including those who commute into the city on a 
daily basis. That 66 percent of the income is earned by 
nonresidents makes the simple point.
    The District has an especially high concentration of 
nontaxable real property, much of it off the tax rolls due to 
the presence of the Federal establishment. Because of this 
unfunded congressional mandate, our residents must shoulder a 
disproportionate share of the cost of the public services, 
while the benefits generated by this city are shared by a much 
larger community.
    Our thirteenth consecutively balanced budget attests to the 
fact that we have not allowed these mandates to become an 
excuse for fiscal irresponsibility. District residents, through 
higher taxes, pay for these mandates. The looming danger, given 
the economic conditions in the Nation combined with the 
District's high expenditure needs, is that should our revenue 
growth slow down, District services would be severely impacted.
    Mr. Chairman, that briefly concludes my oral comments. I 
would like to take this opportunity to stress the particular 
challenges the District faced in preparing this budget in an 
environment of declining revenues. The leadership provided by 
the Mayor and the council allowed the District to produce this 
balanced budget for the proposed 2009 year. As a result we 
certify that the 2009 budget and financial plan as proposed is 
balanced for 2009 and beyond.
    I would like to thank you, Mr. Chairman and Mr. Regula, for 
your leadership and this committee for its diligent and 
continuous oversight work on the District's finances during the 
sustained recovery period. We look forward to continuing to 
work with you and this subcommittee during the forthcoming 
budget deliberations. Thank you, sir.
    Mr. Serrano. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.108
    
    [GRAPHIC] [TIFF OMITTED] T2830A.109
    
    [GRAPHIC] [TIFF OMITTED] T2830A.110
    
    [GRAPHIC] [TIFF OMITTED] T2830A.111
    
    [GRAPHIC] [TIFF OMITTED] T2830A.112
    
    [GRAPHIC] [TIFF OMITTED] T2830A.113
    
    [GRAPHIC] [TIFF OMITTED] T2830A.114
    
    [GRAPHIC] [TIFF OMITTED] T2830A.115
    
    [GRAPHIC] [TIFF OMITTED] T2830A.116
    
    [GRAPHIC] [TIFF OMITTED] T2830A.117
    
    [GRAPHIC] [TIFF OMITTED] T2830A.118
    
    [GRAPHIC] [TIFF OMITTED] T2830A.119
    
    [GRAPHIC] [TIFF OMITTED] T2830A.120
    
    [GRAPHIC] [TIFF OMITTED] T2830A.121
    
    [GRAPHIC] [TIFF OMITTED] T2830A.122
    
    [GRAPHIC] [TIFF OMITTED] T2830A.123
    
    [GRAPHIC] [TIFF OMITTED] T2830A.124
    
    [GRAPHIC] [TIFF OMITTED] T2830A.125
    
    [GRAPHIC] [TIFF OMITTED] T2830A.126
    
    [GRAPHIC] [TIFF OMITTED] T2830A.127
    
    [GRAPHIC] [TIFF OMITTED] T2830A.128
    
    [GRAPHIC] [TIFF OMITTED] T2830A.129
    
    [GRAPHIC] [TIFF OMITTED] T2830A.130
    
    [GRAPHIC] [TIFF OMITTED] T2830A.131
    
                            QUARTERS PROGRAM

    Mr. Serrano. Thank you to all three of you for your 
testimony. Before we get on to these very difficult questions 
we have for you, we deal with a lot of serious issues in 
Congress, but every so often we deal with something that makes 
us feel good. I feel good we were able to include D.C. and the 
territories in the quarters program. As you know, a quarters 
program putting a State on every quarter was to end this year, 
and D.C. was not included, and neither were the territories. I 
represent the Bronx, but I was born in Puerto Rico, so I am 
looking out for both places, and D.C. goes first, for obvious 
reasons. I am trying to convince them that Puerto Rico should 
go second, but that is another issue.
    My question is, is the design ready? Has it been approved 
for the quarter?
    Mayor Fenty. We have it down to three designs, and the 
decision will be made very fast.
    Mr. Serrano. Okay.
    Mayor Fenty. We can get you a copy of all three. All three 
are excellent. And we just want to thank the committee, and 
also Congresswoman Norton, for your support on this issue..
    Mr. Serrano. I think it will do two things. It will give 
the respect in this way, some respect that the District and the 
territories deserve. But my point is that wherever Americans 
live under the American flag, they should be treated equally in 
every way possible. And some child somewhere is going to ask 
his Mom, how come D.C. is on the back of a quarter; and Mom 
will either say, wait until your father comes home, or will 
give the answer, or say, we will go to the library tonight or 
we will Google it and find out.
    I think it is an important thing, and I am looking forward 
to the design. No need to put my picture on the back of the 
quarter. That would be totally improper

                       D.C. PUBLIC SCHOOL REFORM.

    Mayor Fenty, some would say the most public battle you have 
taken on during the last year is the overhaul of the D.C. 
public school system. We hear about many initiatives including 
buyouts and school closings. This also happens to be the item 
for which you are asking for the largest increase from this 
subcommittee.
    Could you discuss your vision for transformation of the 
school system? Also please discuss how your budget request for 
$20 million to jump-start the public school system as well as 
the $54 million requested for school improvement fits into your 
plan.
    Mayor Fenty. Thank you very much, Mr. Chairman.
    The general vision is that at the end of the day, the 
District of Columbia's public schools will have the same level 
of excellence as any particular public school system you could 
pick anywhere in this country or any private school or public 
charter school or anything else. The citizens of the Nation's 
Capital deserve it, and just like a lot of other cities, we 
have been behind for so long.
    What we have tried to do in the past 10 or 11 months since 
we took over this school system is to give Chancellor Rhee all 
of the flexibility, independence and autonomy to run the system 
as if there weren't all of the bureaucracies and cumbersome 
regulations of government, because, to be quite candid with 
you, with 25 to 30 years of just heading in the wrong direction 
of a school system, she needs to move fast. So what we have 
done with the support of the Council and Chairman Gray, is 
allow her to hold administration officials accountable, to be 
able to consolidate schools where necessary, and to have the 
revenue that she needs.
    So she has laid a lot of people off; she has scrubbed some 
programs. We are putting about 40 million new local dollars 
into the classrooms without increasing the size of the school's 
budget. What she expects to do with the additional money that 
is before your committee is to use it for new programs.
    One of the highest-profile things that Chancellor Rhee 
wants to do is have a new agreement with the Washington 
Teachers' Union, an agreement that would be very equitable 
where she would have more opportunity to hold teachers 
accountable, but where she would be able to provide them more 
resources, including bonuses, and merit pay along the way. We 
think it will be a model agreement, but we will need additional 
funds to be able to pay for it. This is a great start.
    Mr. Serrano. And obviously it has support in the community 
and in the local press also, from what I understand.
    Chairman Gray, I know you and other members of the City 
Council have voiced concerns during the past year of or about 
the school reform measures. Could you comment on the Mayor's 
plan to transform the schools? And are you hearing concerns 
from the constituents to the City Council?
    Mr. Gray. Well, first of all, let me underscore that we 
enthusiastically and heartily support education reform, and we 
were delighted to join with the Mayor in embarking on this 
journey. One of the things we did at the very outset last 
January was to make education a committee of the whole issue so 
that every council member was a part of education reform. The 
Council voted overwhelmingly to support education reform. And 
then we made several other crucial votes. One was to give the 
Chancellor the ability to have more flexibility in how she 
addresses nonperformers in administrative positions in the 
school system.
    I think at every step of the way, the Council has done two 
things. One is it tried to be a good steward on behalf of the 
citizens that we represent, to ask the difficult questions. But 
at the end of the day, we have been convinced that what has 
been proposed to us was the direction that should be pursued, 
and we have supported that enthusiastically.

                      HIV/AIDS PREVENTION PROGRAMS

    Mr. Serrano. Mayor Fenty, at this time last year we 
discussed my belief that Congress should remove the controls it 
has placed on the city throughout the years, on the District. 
We were not as successful as I would have wished for last 
year's bill. One item which I am most pleased about is the 
removal of the ban on the needle exchange program in the 
District. Can you discuss how you have implemented a city-
supported needle exchange program? What other measures is the 
city taking to try to stop the spread of HIV/AIDS?
    Mayor Fenty. Thank you, Mr. Chairman, Congresswoman Norton 
and Ranking Member Regula. This is a measure that you have 
undertaken to remove this as a rider from our budget, which has 
had, without any hyperbole, life-and-death consequences and 
positive ramifications on the city.
    There has been a group called Prevention Works that has 
worked in the city for years now. They have all privately fund-
raised and have similar groups in other jurisdictions, most 
notably Chicago and I am sure New York as well, who provide 
clean needles. We would like for everyone to be substance-free, 
but in this day and time it is just not a reality. So while we 
know people may be using unclean needles, it is great to have 
these organizations that are working to provide people with 
clean needles, which we know prevents the spread of HIV/AIDS.
    Within days of the legislation becoming effective, the city 
wrote a $300,000 grant to Prevention Works for needle exchange. 
We are now working with our HIV/AIDS Administration to develop 
the capacity of many other local organizations to do the same 
thing.
    Some of the other things that our new HIV/AIDS 
Administrator Shannon Hader and my new Health Director Pierre 
Vigilance are doing includes marketing, working with the 
schools, including grants that have been set up by the City 
Council to put resources to nonprofits that are working east of 
the river, where there is the greatest prevalence and growth of 
HIV/AIDS.
    We have one of the most renowned experts in the country, 
Dr. Shannon Hader and a lot of people are recognizing our 
results. Independent groups like Appleseed have increased our 
scores and grades for what we are doing on HIV/AIDS. We are 
glad to supplement the testimony and get you more information.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2830A.132
    
    [GRAPHIC] [TIFF OMITTED] T2830A.133
    
    [GRAPHIC] [TIFF OMITTED] T2830A.134
    
    [GRAPHIC] [TIFF OMITTED] T2830A.135
    
    [GRAPHIC] [TIFF OMITTED] T2830A.136
    
    [GRAPHIC] [TIFF OMITTED] T2830A.137
    
    [GRAPHIC] [TIFF OMITTED] T2830A.138
    
    [GRAPHIC] [TIFF OMITTED] T2830A.139
    
    [GRAPHIC] [TIFF OMITTED] T2830A.140
    
    [GRAPHIC] [TIFF OMITTED] T2830A.141
    
    Mr. Serrano. That is wonderful.
    The subcommittee is proud to welcome a special guest, 
Congresswoman Eleanor Holmes Norton, to the committee. In 
Yiddish there is a phrase that we Puerto Ricans know well; it 
is ``nudge.'' A nudge is a person who pushes and pushes and 
pushes. And this person, on behalf of D.C., pushes and pushes 
and pushes, and we are very proud to have you on the panel 
today.
    Mr. Regula.

                       SCHOOL DROPOUT PREVENTION

    Mr. Regula. Thank you, Mr. Chairman.
    Just a couple of questions. I put most of my questions in 
the record in the interest of time.
    Mr. Regula. One of the problems that confronts the school 
system is dropouts, as you well know. What success have you 
had? Do you have programs to try to address that? And do you 
get some of the institutions in the area of higher learning to 
bring in some people, maybe offer courses in the high school so 
that young people have an idea that maybe they can go to 
college? If they haven't thought about it, but if they get some 
exposure, that could be one of the ways of addressing it. But I 
would be interested in your comments on the dropout rate 
generally.
    Mayor Fenty. A huge issue, as you know, Congressman. What 
the Chancellor envisions is having middle schools and high 
schools that challenge the young people, and stimulate them, 
and excite them so they won't want to drop out. That is why the 
$40 million additional going to the classrooms is for arts, 
language, music and either vocational education on one side or 
AP classes on another, and enhanced sports as well. These 
things are a big part of keeping kids engaged so you will see a 
lot of that, you will see a lot of the encouragement.
    Ms. Rhee also believes, and I support her 100 percent on 
this, that after-school activities are extremely important, 
because we only have the kids from 9:00 to 3:00 in the schools. 
So by next year she will have a comprehensive after-school 
program in every school, where we make sure that we are keeping 
the kids engaged, they are learning something, and they are 
excited. No matter what is happening in their own community or 
at home, we don't want that to detract from their educational 
experience.
    I think that is the general vision of the Chancellor, and 
we have made great strides, and this budget which is before you 
will allow us to make even more.

                     THREE-SECTOR EDUCATION FUNDING

    Mr. Regula. Do you support the three-sector education 
funding that the President has requested? I assume you worked 
out the details with the White House.
    Mayor Fenty. That is exactly correct. The Chancellor has 
been engaged in discussions, as has the City Administrator, 
going well back into the winter. While there are a lot of 
details, the essence of it is that by strengthening the entire 
education system in the District of Columbia and putting more 
money into the public schools, we think we are going to have a 
world-class education system.
    And I agree with the Chancellor 100 percent, that in the 
District of Columbia we have to be supportive of education in 
as many different arenas as humanly possible, and we have tried 
to do that.
    Mr. Regula. Chairman Gray, I assume, speaking for the 
council, you would take the same position?
    Mr. Gray. We do. We certainly support the three-sector 
funding and look forward to those additional resources. 
Focusing as the Mayor has on public education, we need every 
resource available to us now to quickly jump-start our system.
    Mr. Regula. Mayor, would you support an increase in the 
stipend for the high school students--in the scholarship 
program so they would have greater choices?
    Mayor Fenty. Well, the Chancellor worked very hard on what 
was submitted by the White House through OMB, and so before we 
would make any changes, any additions or decreases, I would 
want to go back to her point people in the Federal executive.
    What I can say is that the package before you, the quote/
unquote package, of three-sector funding has been worked on by 
all three different sides, and I think it is the right 
compromise for right now. Whether there should be adjustments 
in the future I can't say, but I can say you have the support 
of this administration to work with you. We would like to have 
everybody at the table before we would say yea or nay to any 
additional changes.
    Mr. Regula. Certainly I congratulate you, and the council, 
and the administration on putting an emphasis on education, 
because that is the future of the young people in this 
community and the community in general.
    Mr. Chairman, I will put the rest of my questions in the 
record.
    Mr. Serrano. Thank you, Mr. Chairman.
    Ms. Kilpatrick.

                             D.C. STATEHOOD

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good to see you all this year.
    It is my understanding that there are about 600,000 
residents in the city--the State of D.C., and of that 600,000 
in the State, you generate among them $5.7 billion--was that 
the number that I heard this morning?
    Mayor Fenty. Yes.
    Ms. Kilpatrick. Of your own money, $5.7 billion comes from 
the residents who live here.
    Mayor Fenty. Correct.
    Ms. Kilpatrick. And $3.7 billion is what the Federal 
Government gives you on Medicaid and other categories.
    Mayor Fenty. Yes, ma'am.
    Ms. Kilpatrick. I am hopeful that as we have a new 
administration in November, we will be able to move forward 
with D.C. statehood. It is time.
    Mayor Fenty. Thank you very much.
    Ms. Kilpatrick. There are many other States, three or four 
other States, and it is just time. You deserve two Senators and 
a Congressperson, and we hope that we can move forward on that 
next year.

            CAP ON ATTORNEY FEES FOR SPECIAL EDUCATION CASES

    As we discussed, there were caps on your attorneys' fees 
for disabled children. Something was worked out. I never heard 
the final--my staff is kind of keeping me up. How does that 
work now? We didn't need legislation. Was the cap removed, and 
are the children being represented adequately?
    Mayor Fenty. My understanding, as I recall it, the cap is 
still in place. The cap is still in place, but what the 
Chancellor has tried to do is--for some reason, prior to us 
taking over the system, DCPS would fight everything. We would 
just fight all of the legal cases, no matter whether or not we 
knew that we weren't providing the services required by Federal 
law. So what you will see the Chancellor do is to say, 
``listen, we know that the system is broken.'' In some cases, 
instead of fighting and driving up exorbitant legal fees and 
not serving the child, we will just serve the child and just 
stipulate with the attorneys that things are not as they should 
be.
    We think that is going do two things. It is going to allow 
the cases where there is really some disagreement to go 
through, and hopefully the attorneys will get what they need 
and will fight for the kids. In cases where we just know we 
have done wrong, we are going to provide the service for the 
kids. In the Chancellor's budget there is a lot of improvement 
on special education, most notably in creating lab schools in 
the public school system in the District of Columbia.
    Ms. Kilpatrick. So the cap itself maintains itself.
    Mayor Fenty. Correct.
    Ms. Kilpatrick. It is not a detriment to getting the 
representation it needs to have for the children.
    Mayor Fenty. I think by ending the automatic dispute, by 
saying we know we have done wrong in some cases, and saying, 
listen, we know we need to fix this, I think you will see a lot 
quicker results for the children. We are working very closely 
with anyone who is advocating for children, especially those 
who may need special services.
    Ms. Kilpatrick. That is good.

                        FEDERAL FUNDING OF D.C.

    In the Federal request for 2009, I notice the Executive 
Office of the Mayor is zeroed out, as is the chief financial 
officer zeroed out for Federal funds. Does that mean the 
general fund of D.C. will be used to compensate that, or you 
don't need any dollars there?
    Mayor Fenty. Well, I don't know if there was a special 
provision last year. What I am being told is that there were 
some grants that went through the EOM.
    Let me actually yield to the CFO. He probably knows this 
chapter and verse.
    Mr. Gandhi. That is true that this is basically the flow-
through grants that go through our offices.
    Ms. Kilpatrick. We don't have any for you at this time?
    Mr. Gandhi. I am sure you will, but later as the budget 
process goes through the Hill.
    Ms. Kilpatrick. Right. You didn't as the budget was being 
prepared, but we are hopeful that we will have more grants for 
D.C. as we go forward.
    Mr. Gandhi. Right.
    Ms. Kilpatrick. I, too, want to commend you as an educator 
and a grandmother. Education is the key. You get a good 
education, you have some options; if you don't, then 
unfortunately you have other kinds of problems.
    In China and India they spend 70 percent of their Federal 
dollars on education.
    Mayor Fenty. Wow.
    Ms. Kilpatrick. In our country we spend 2 percent of this 
$3 trillion budget on education and then leave it to the 
States. There is something very wrong with that. So we need 
people like yourselves, Mr. Chairman, and others who have that 
vision. When we shortchange the children now, we pay for it 
later. So I want to commend you for what you are doing.
    Mayor Fenty. Thank you.
    Ms. Kilpatrick. And I look forward to continuing working 
with you.
    Mr. Serrano. Thank you.
    You are a grandmother?
    Ms. Kilpatrick. Absolutely. Five, I know I don't look like 
it. It is great.
    Mr. Serrano. It is good to score points with the Vice 
Chairwoman.
    Mr. Alexander.

                   FEDERAL FUNDING FOR D.C. EDUCATION

    Mr. Alexander. Thank you, Mr. Chairman, Mr. Mayor, members 
of the table, thank you for being here.
    Mr. Mayor, the administration's budget has provided $74 
million to improve K-12 education in the District, which you 
have identified as a top priority. And it expands upon the 
successful three-sector education strategy, an effort to help 
all sectors of education in the Nation's Capital. The budget 
provides $20 million to jump-start reform initiatives for the 
District's traditional public school system, where your office 
has assumed more responsibility and is committed to building on 
key principles of the No Child Left Behind Act.
    Eighteen million dollars is provided to support public 
charter school development and quality. D.C. has a particularly 
high percentage of students enrolled in charter schools. 
Ensuring the schools are high quality is, of course, extremely 
important. This $18 million will enable the continuation of the 
D.C. Opportunity Scholarship Program that provides low-income 
District parents more options for obtaining a quality education 
for their children.
    Under the three-sector approach, funding has flowed to 
these three branches. Each year the charter schools are 
receiving $13 million each more than they would have otherwise. 
Do you feel that this has been an effective funding strategy?
    Mayor Fenty. I am sorry, did you ask if I feel that it has 
been effective?
    Mr. Alexander. Effective.
    Mayor Fenty. I do. But more importantly, I think the people 
I have appointed to be subject matter experts in education feel 
that it has.
    One of the things that is important in the District of 
Columbia, because we are so far behind on education, is that we 
educate the children and give them excellence by any means 
necessary, and as quickly as humanly possible. It would almost 
be hypocritical for me, with the type of shakeups that we have 
been pushing for in the school system, to not recognize there 
are other ideas and other people outside the traditional public 
school system who bring ideas and creativity, and energy to 
educating our children in the District of Columbia.
    And so, again, I will repeat what either Chancellor Rhee or 
Chancellor Joel Klein in New York, who Congressman Serrano 
knows very well, has said before: If someone is providing an 
excellent education to a young person in the District of 
Columbia, they are going to have the support of this 
administration; and those who do not will not have our support, 
and that could be in the public, private or public charter 
schools.

                COURT-APPOINTED SPECIAL ADVOCATE PROGRAM

    Mr. Alexander. I would like to talk to you about the court-
appointed special advocate organization. As you know, CASA, as 
it is called, are trained volunteers who represent children in 
cases of abuse and neglect in the District of Columbia family 
court system. Approximately 4,000 cases of abuse and neglect 
are currently in the D.C. Court system, and 1,500 new abuse and 
neglect cases are brought before the D.C. family court every 
year.
    The CASA for Children of D.C.'s goal is to recruit and 
train an advocate to serve every one of the abused and 
neglected children in D.C., all toward the goal of matching 
each child with a permanent and loving family. It is my 
understanding that the CASA has actually saved the District 
money. I wonder where CASA fits into the D.C. budget and 
priority list given its enormous impact on the District and 
whether you plan to fund it or not.
    Mayor Fenty. We do, Congressman. They were funded in this 
year's 2008 budget, and they will be funded in the 2009 budget 
as well. Like you, we recognize the enormous amount of great 
work they have done for young kids in our child welfare system.
    Mr. Alexander. Thank you, sir.
    That is all, Mr. Chairman.
    Mr. Serrano. Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman.

                      NATIONAL CHILDREN'S ALLIANCE

    Mr. Mayor, welcome before this subcommittee.
    I have been in the U.S. Congress since the early 1990s, 
and, as my colleagues, we live here in the District of Columbia 
almost as much as we live back in our home districts. 
Unfortunately we don't get to enjoy the District as much as we 
would like, because we are constantly going back home as soon 
as our session is over with.
    However, think back on what the District was like in the 
early 1990s versus what it is now. It is a totally different 
place, and it is our Nation's Capital. We need to be proud of 
what goes on here. I congratulate you. You are off to a good 
start. I followed your career there.
    I do want to bring up, since my colleague Mr. Alexander 
brought up the CASA, Court-Appointed Special Advocates, in my 
prior life I was a district attorney in north Alabama, and we 
put together a pilot new program to interview with physically 
and sexually abused children, and we called it the Children's 
Advocacy Centers. We started there in north Alabama; there are 
7-, 800 of them around the country now. We couldn't believe 
that what we started to try to rescue these kids and hold the 
offenders accountable and then provide services to restore 
their lives and their families' lives would be copied by 
communities around the country.
    But I came to D.C., and we worked with the task force here 
for a number of years to establish the Safe Shores Program, and 
it was a newcomer. It needed to be here because we have a lot 
of kids that are in the system here that--their situations need 
to be addressed.
    But the nonprofit that is the pilot of this, the National 
Children's Alliance, moved here to D.C. I have to tell you, 
their involvement with D.C. government from the get-go was a 
nightmare. The National Children's Alliance was going to 
collocate with Safe Shores, and we found a firehouse on the 
other side of the Hill, on the Senate side across from the 
Hyatt Regency, that had been shuttered for years, and we were 
going to move together in there. This membership organization 
was going to occupy some administrative floors upstairs, and 
this working child abuse intervention program, Safe Shores, was 
going to be downstairs. It would be in a firehouse. What a nice 
image for kids to come into that that are going to have to tell 
what I would not want any child to have to tell.
    But the control board then sort of intervened and took over 
and delayed that decision and delayed that decision. But then 
we looked with the city's help--or the District's help, we 
looked at Gales School and another older school on the Senate 
side as well. We got excited about that collocation. In fact, 
that was authorized in the 2002 budget and then funded to the 
tune of $7.3 billion, but this city pulled or cancelled those 
plans in 2004 because city administrator Robert Bobb--I think I 
have the name right--decided that was not an appropriate use 
for that particular site. So once again, after years of 
awaiting, an expectation that was pulled again.
    The downside, the National Children's Alliance spent money 
with the city's understanding, cooperation and participation 
with architecture plans to show what that school could be 
converted to for Safe Shores' benefit, for the National 
Children's Alliance benefit as well, and they lost that money 
when that project was pulled. So they went their own way and 
bought property in another location. Safe Shores went another 
way there. But we have a claim in the city or District process 
for reimbursement for that money. I know this is new to you.
    Mayor Fenty. Yes.
    Mr. Cramer. Hopefully it is not new to your folks. Would 
you all take another look at that? That thing has just been 
stalemated for so long, and I think there are some equities 
there that we need to look at together. Sorry you had to 
listen.
    Mayor Fenty. Oh, that is fine.
    Mr. Cramer. Along the way, Safe Shores got created. We have 
hosted groups here from all around the country, Columbus, Ohio; 
Chicago before they built their programs. Sent task forces in 
here. Together we hosted them as Safe Shores, and they went 
back to their communities and built their programs and 
established an even stronger model for the rest of the country. 
It has been a terrific partnership, nonprofit, that helps the 
public sector, too, because your Child Protective Service 
workers get a chance to work in an environment at Safe Shores 
that they wouldn't get if there wasn't a Safe Shores.
    I think there are a lot of issues involved. I will address 
a letter to you and help you see what our concerns have been 
and what the history has been, and let's see where we can go 
with that. Thank you.
    Mayor Fenty. We will follow up with you, Congressman, and 
the Chairman right away.
    Mr. Cramer. I thank the Chair and the committee's 
indulgence over that.
    Mr. Serrano. No, we thank you for that.
    Mr. Ruppersberger.
    By the way, congratulations. I see the Orioles are in first 
place.
    Mr. Ruppersberger. Let me ask you one question, Mr. Mayor: 
Do you like the Yankees?
    Mr. Serrano. I think I can answer that for him. He loves 
the Yankees.
    Mr. Ruppersberger. I withdraw that question. I wouldn't put 
the citizens of Washington in that position at all. I withdraw 
that question. It is a little thing we have: going between the 
Orioles and the Yankees.

                  WASHINGTON METROPOLITAN AREA TRAFFIC

    First, I want to say leadership starts at the top. Your 
team have done an excellent job. Management is about hiring the 
best people. Working with your county council, it is so 
important to have that check and balance, share the credit and 
set your mission. You have to have good people. I think your 
priorities are in order. Any major metropolitan area needs to 
prioritize.
    With that said, I am going to get into the area of 
infrastructure. That is the issues of traffic. Those of us who 
travel in D.C. and who have been involved in local government 
understand there is a lot more that we could probably do in 
D.C. The traffic situation has evolved, and it is pretty bad. 
And we in this area, the Virginia, Washington and Maryland 
area, are facing a problem, probably worse if we don't deal 
with it in the next 10 years, as bad as LA. We have to really 
address the issue. A lot of it is getting people out of cars 
into rail, those type of issues.
    What I want to raise with you and would like to work with 
you on that, and I have had conversations Chairman Oberstar and 
Chairman Serrano. Chairman Oberstar is Chairman of the 
Transportation Committee in the House. We have a BRAC (Base 
Realignment And Closure) process. My district, MD-02 goes from 
Fort Meade to Havre de Grace; but Fort Meade, NSA, BWI airport, 
all in that area. So we are going to have a tremendous number 
of people coming from Virginia and Washington working in these 
areas because of BRAC 2005.
    I did some research, University of Maryland College Park 
and also the University of Minnesota. There are groups within 
the colleges themselves who are getting educated in the 
transportation area with studies. The focus of the studies is 
to improve not only signage, but to use technology to 
synchronize our lights, to study where we can improve the 
traffic, how we can improve the traffic. In order to improve 
traffic it can't be one street at a time. It is look at the 
whole picture of traffic. I think this is something extremely 
important for the Nation's Capital and for your constituents--
--
    Mayor Fenty. Yes.
    Mr. Ruppersberger [continuing]. And for Congresswoman 
Holmes Norton's constituents, that we work together and it ties 
in. It is not just D.C.; it is people coming from D.C., 
Virginia, Maryland, this whole area.
    I would like to make contact with you after this hearing 
and talk to you about that and maybe attempt to talk to the 
Chairman about it with the possibility of getting some monies 
for a study to deal with the issues of traffic. Traffic not 
only deals with the issues of moving people, people sitting in 
their cars going to work, they waste a lot of time, it is also 
a quality-of-life issue for your constituents.
    Mayor Fenty. We would appreciate working with you. As a 
former county exec, you know you how important this is and how 
politics is local. So I think both because of your jurisdiction 
and your congressional district and then how regional traffic 
issues impact the city, it would be a great partnership. So you 
have my complete support. I would be glad to have my staff 
reach out to you immediately right after this hearing.
    Mr. Ruppersberger. Okay.

                            GANG TASK FORCE

    The other thing is the issue of gangs. We were able within 
the CJS subcommittee to get monies--and, by the way, crime has 
no geographical boundaries new to gangs--and to get monies to 
go from Philadelphia to North Carolina, including the District, 
and to really work with a database that will get real-time 
information on where we are and identifying gangs throughout 
the whole area. If there is a lot of law enforcement--for 
instance, there is a lot of focus in northern Virginia, and the 
gangs move into the District and into Maryland.
    So this gang task force is a task force that will use 
technology, but also another component of this is to deal with 
the issue before the kids get to gangs. The reason kids go to 
gangs, because their family is worse than what they feel they 
are getting in the gang, and the gang becomes their family. So 
we are dealing with different communities to try to reach to 
the children ahead of time. So I think it is also important to 
communicate about meeting with your police chief.
    Mayor Fenty. Yes.
    Mr. Ruppersberger. Do you call it chief or commissioner in 
D.C.?
    Mayor Fenty. Chief.
    Mr. Ruppersberger. Mainly your police chief--and make sure 
she ties into the jurisdiction. The headquarters of this will 
be in Maryland with the Maryland State Police, and we want to 
make sure you are tied into our software package and whatever 
we need to do there. So those are two issues after the fact we 
will get with you on.
    Mayor Fenty. We will follow up both with you and the 
Chairman. Thank you.
    Mr. Serrano. The Chair wishes to note I recognize Members 
alternating between Democrats and Republicans based on when 
that Democrat or Republican walked into the hearing, and I 
skipped over Mr. Goode, and I totally, totally apologize. And I 
recognize you, and instead of the 5 usual minutes, you can take 
5\1/2\.

                    D.C. REPRESENTATION IN CONGRESS

    Mr. Goode. Thank you, Mr. Chairman. I won't use that.
    Mr. Mayor, Mr. Gandhi and Mr. Gray, thank you for being 
here. I know Mr. Gray mentioned this, the issue of D.C. 
representation here on Capitol Hill. Do you want to see House 
and Senate representation for residents of the District of 
Columbia? Is this an accurate statement?
    Mayor Fenty. Yes, yes.
    Mr. Goode. Have you thought about trying to incorporate 
with Maryland and return D.C. to--part of the District north of 
the Potomac to the State of Maryland and become part of 
Maryland so that you would have that representation?
    Mayor Fenty. I think there are a lot of different 
viewpoints on this issue, as you can imagine, Congressman. From 
my own informal poll, I think most residents feel that the 
District is so unique now that merging back, retrocession, is 
not the preferred option. There are some district residents who 
actually support it, though.
    The other thing, and I can't speak for Maryland residents, 
but the other thing I have heard, and you can certainly speak 
to Congressman Ruppersberger or Governor O'Malley on this, is 
that Maryland residents don't support that either.
    It seems that the option that has been pushed for over the 
last couple of decades is to give the District of Columbia full 
voting representation for the 600,000 residents. That is the 
preferred option.
    Mr. Goode. Now, in the situation with the part of the 
District that used to be south of the Potomac. Arlington is 
just part of Virginia now.
    Mayor Fenty. Right.
    Mr. Goode. Let me ask you this: What if Arlington said, 
hey, we want the whole full District back?
    Mayor Fenty. You know, sir, again, there are just no limits 
to the number of hypotheticals that you could come up with 
around voting representation. I think two things are true: That 
the District residents unanimously are not satisfied with where 
we are now, and the District residents also appreciate that we 
have some momentum on this issue. Just the virtue of the fact 
we raised the question and try to help come up with a solution, 
shows that momentum. And everyone from Senate Majority Leader 
Reid to our own Congresswoman here, and 57 Senators and the 
majority of the House believe that something should be done.
    We started with a compromise that Congresswoman Norton and 
Congressman Davis came up with a bipartisan compromise last 
year, and hopefully we can push forward on that. I haven't 
heard anybody from Virginia mention that, but that one probably 
would not have the support of District residents. I think 
working together we will come up with something very quickly, 
and I think the tides are turning in the District's favor.
    Mr. Goode. All right. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    I don't think that plan would work because then Maryland 
would have two baseball stadiums, and Virginia would have none. 
See, it all comes under baseball. That is what this is all 
about, you realize, right? It is that nice stadium.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Noting that the Florida Marlins are 
still in first, Mr. Chairman.
    Mr. Serrano. Not for long.

                         CAPITOL VISITOR CENTER

    Ms. Wasserman Schultz. Mayor Fenty, it is very good to meet 
you. I haven't had a chance to meet you personally.
    I wanted to focus on the impending opening of the Capitol 
Visitor Center. We are working closely with the city on 
developing the Circulator bus route that will pick up tourists, 
visitors to the CVC, at Union Station, circle through some 
circuitous route, and keeping in mind the security needs that 
we have at the Capitol, and then eventually drop them off at 
hopefully someplace close so that the little legs of children, 
frail legs of senior citizens won't have to walk extremely far.
    How is the coordination going with the Capitol Police and 
with the Architect of the Capitol on that process of developing 
that route? There is obviously going to be an increased demand 
for that Circulator bus route. Are you adding buses; are you 
addressing the demand?
    The other concern that I have is, there is a dollar charge 
for getting on that bus. And, you know, I chair the Legislative 
Branch Subcommittee, and our committee members are also 
somewhat concerned on both sides of the aisle about the 
additional cost of getting those folks transported to the CVC.
    Mayor Fenty. So let me address the first issue. I think the 
general point is the administration, the local administration, 
supports this 100 percent. I know that DDOT has been in 
discussions with the Architect of the Capitol, and I think they 
are discussing everything from additional buses to making sure 
that there is additional hours, and that we kind of focus in 
this particular Circulator route on the unique needs of our 
tourists. And so we will make sure that we will continue to do 
that.
    I think one of the things we are very cognizant of and 
paying attention to is how the Circulator has been marketed. It 
has really been a boon for the District since we established 
it. People like to know everything from the colors of the bus, 
to how well they are kept, the regularity that they run, to the 
very tight routes, as well as the price of the fares. So expect 
that to remain intact as we bring the Circulator not only to 
the Capitol route, but we bring more Circulator routes 
throughout the District of Columbia.
    If you need anyone from the Department of Transportation to 
just give you an update or more specifics or time lines, we 
would be glad to get it. But from my understanding, the 
discussions with the Architect have been going very well.
    Ms. Wasserman Schultz. If we could sit down with DDOT, that 
would be great, so I could get a more specific update. The 
concern that I have is I think the Circulator buses hold about 
50 people, something like that, from what I understand; 40 
maybe.
    Mayor Fenty. I think 50 seats, and then it can go as high 
as 70 with standing.
    Ms. Wasserman Schultz. Many of our groups have more people 
than that, and the buses circulate every 10 minutes. So if you 
are trying to get a group of 150 kids from the Union Station to 
the CVC, it will take 50 minutes for the whole group to gather, 
at least.
    When I was speaking to the Architect of the Capitol at our 
CVC oversight hearing, which we have every month, I didn't 
really get a satisfactory answer as to how we were going to 
address that concern. Obviously we can't have it take 50 
minutes to have a school group to get to the CVC.
    Mayor Fenty. That is a good question. Let me reiterate to 
you how important the tourism industry is to the elected 
officials of the District of Columbia government. And to that 
extent we would find it in our interest to make sure, whether 
it is larger buses, whether it is two buses back to back, or 
something that--the transportation officials could probably 
come up with better ideas--whatever it is, to make sure that 
our Circulator route on the Capitol is tourist friendly, we 
will get it accomplished. We will both meet with the Architect 
and provide you and the Chairman with a briefing on a couple of 
different alternatives, and as is the case, hopefully, you can 
help us come to the right decision.
    Ms. Wasserman Schultz. Thank you.

                  D.C. AND CAPITOL POLICE COORDINATION

    Two questions. I know that I have spoken to the Capitol 
Police about their perception of the coordination that goes on 
between the DC Police and the Capitol Police. What is your 
perception of how well the two agencies work together?
    Mayor Fenty. To be honest with you, I think it is nothing 
short of remarkable, given all of the threats. Every time I ask 
the Chief the number of threats and incidents that come in to 
the Nation's Capital, it is more than any resident would ever 
imagine. Whether it is putting out of the bomb threats that 
have been right outside the Capitol, or just going after people 
who happen to be speeding around the Capitol campus, I think 
there is great coordination. It started under our predecessor 
Anthony Williams and the Ramsey administration. But our Chief 
Lanier was a special operations division commander, which is 
one of the reasons why I selected her, because she had a 
tremendous amount of training in homeland security, special 
operations and working with the Federal police authorities.
    Ms. Wasserman Schultz. Well, it is a tremendous source of 
pride for me as a woman that you have a female police chief, 
and I think it is to your credit that you made that selection 
because she seems to be doing an excellent job.

                          BIKE SHARING PROGRAM

    Mr. Chairman, with your indulgence I just want to ask about 
the bike-sharing program, because we are starting a bike-share 
program on the Capitol grounds and wondered if you had any 
advice for us as we move forward. We are trying to minimize 
costs, definitely had to cut back the ambition of some of the 
people who were spearheading this effort, but how do you 
assess--the real issue is how do you assess the potential need 
for the service, how much you would----
    Mayor Fenty. To be honest with you, two things. One, we 
know the District residents. We know that people are both more 
concerned about being healthy, more concerned about their 
environment and want ways to demonstrate both.
    Two, as anyone who has just traveled to any major city in 
Europe knows, bicycles are a lot bigger part of the daily 
activity there. In fact, there are some European cities that 
have garages for bicycles. We want to keep pushing in that 
direction.
    The thing I will stress is that putting dollars forward to 
it is worth it. I think it increases the quality of life. More 
people want to live here when there are more bike routes and 
bicycles available.
    I think the private sector will pony up to it. I don't know 
how the private-public partnerships work on the Hill, but we 
have been able to use them in our bike-sharing program, and we 
would be glad to share that with you.
    Ms. Wasserman Schultz. While we are meeting on the CVC, if 
we could add on the bike-share program, that would be great. 
Thank you very much.
    Mayor Fenty. Thank you.
    Mr. Serrano. I will put the rest of the questions in the 
record.

                            FISCAL SITUATION

    Mr. Serrano. I would like to move on now to discussion of 
the city's financial security and soundness. There have been a 
few troubling articles recently that I would like you to 
comment on, Dr. Gandhi. First, it has been reported the city 
entered into a situation with bonds that have now being 
portrayed as a risky way to finance projects. Is it true that, 
as reported, the city now has to repay more than a million 
dollars a month more than expected? Will this amount increase, 
and does this concern you?
    Mr. Gandhi. Sir, I think that article that had appeared in 
the newspapers really misses the whole mark. The program that 
we with, the so-called auction rate securities whereby we 
borrow short term, had been a very successful program. In year 
2008 alone, we would save $10 million using that program. In 
the last few years, I would say since 2006, we would save $100 
million in interest costs by using that particular program.
    What happens here is that we have to look at the mix of our 
borrowing. Of about $4\1/2\ billion borrowing, these so-called 
auction rate securities that the article referred to is about 
10, 11 percent. And I think it is a most appropriate mix to 
have since it saves us a lot of money. And that situation is 
entirely under control. And by the end of this next month, we 
will have provided to secure those securities with enough 
funding and enough provision that I would say the city is for 
more better off than if we had not taken on those auction rate 
securities.
    Mr. Serrano. So the last part of my question was, did this 
concern you that this would create a problem?
    Mr. Gandhi. No, sir, not at all. There are $200 billion 
securities out like that. Hundreds of municipalities use that. 
And we used it most judiciously.
    Mr. Serrano. I have to tell you, the committee members are 
outraged that you would think a reporter didn't get the story 
right. Oh, boy, am I in trouble.

                            FINANCIAL AUDIT

    My next question is regarding the recent audit which found 
three material weaknesses--and that is the quote--in the city's 
handling of its finances. Could you discuss what is being done 
to correct these problems? And is there reason to be concerned 
that these issues, coupled with a downturn in the housing 
market, could threaten the economic strength of the city?
    Mr. Gandhi. The material weakness issue is troubling, and 
we are very much concerned about that. One had related to the 
school system, and we had experienced that material weakness 
last year. We had not had enough time to work on it; however, I 
am quite confident as we proceed through the 2008 audit that we 
would remove those material weaknesses substantially.
    And I guarantee you, Mr. Chairman, Mr. Regula and members 
of the committee, the city's financial situation is not at all 
threatened by any of these since we have received a clean 
audit--this would be the 11th consecutive balanced budget with 
clean audit with substantial reserves. And we have had A-plus 
bond rating with a stable outlook from all three rating 
agencies simultaneously. That has never happened before. So I 
am quite confident about the city's finances under the 
leadership of the Mayor and the council.

                                 CRIME

    Mr. Serrano. One last question. Could you comment on your 
plans to combat crime in the District? In recent weeks there 
were a number of murders in one Northeast D.C. neighborhood. As 
well, The Washington Post ran a story about the large increase 
in home burglaries in the city. Whether the economic downturn 
is to blame for the increase or not, could you comment on what 
your plan is to do to confront this increase in crime?
    By the way, I should have prefaced that by saying I don't 
want to sound like a contradiction. On one hand I want to take 
myself out of business in having anything to do with telling 
the city how to behave. That day hasn't come yet. On the floor 
we get a lot of questions about what is happening in D.C., both 
from Members who live here in the District and others who have 
general well-intentioned concern. So these questions are not 
part of a continuation of a behavior of the past, but rather to 
be able to answer questions as they come to us.
    Mayor Fenty. We find it much more than appropriate. We 
actually appreciate the question.
    What the Chief has done--it is important to start out by 
saying if you look at the crime map, it actually looks the 
opposite of Dr. Gandhi's chart. It has steadily gone down. 
Whether you measure it in homicides, burglaries, robberies or 
any other type of violent crime probably going back 25 years, 
it just continues to go down. There are upticks from time to 
time. And what we found is the uptick like the one you 
described in the fifth district, they are happening less and 
less. They are happening longer intervals.
    Mr. Fenty. So our job is to try and extend that interval 
and reduce the uptick by as much as possible. The Chief is 
doing a number of different things, one, putting more police 
officers on the street, everywhere from New York, Chicago, 
Philadelphia, that is obviously the key. She is taking people 
out of desk jobs. I just went to an academy graduation where 40 
new officers are hitting the streets. We are going to get up to 
a sworn officer count of 4,200 by the end of the fiscal year, 
the budget that you will be approving, and we have got money in 
there to do so.
    The second thing that she is doing is really trying to make 
sure that we solve some of these tragic crimes quicker. Just 
take the homicide rate for example. The homicide closure rate 
for this year is 64 percent, which is almost double where it 
was last year. And last year was one of the highest levels that 
it had ever been. That shows great work on the part of our 
detectives, bringing people off the streets who could then do a 
subsequent crime.
    The other thing that we are obviously trying to do is to 
make sure that we beat crime to the punch. We learned this from 
other jurisdictions. Tactical units are trying to get in front 
of the crime as much as possible and prevent it from spiking. 
We have had some excellent arrests since that spike hit in the 
Fifth District, many of which were announced over the last 48 
hours.
    So a lot of things along that nature. We pulled 312 guns 
off the street in the District of Columbia this year. That is 
about 100 more than we pulled off the streets at this time last 
year, which shows great work for the police department, but a 
lot of work to do and just reducing guns in big cities in this 
country.
    Mr. Serrano. Chairman Gray.
    Mr. Gray. Yes, thank you very much, Mr. Chairman.
    I want to underscore a point that the Mayor made, and that 
is the Council made the decision about a year ago to invest 
additional resources in being able to bring onboard more police 
officers. We made the commitment for up to another 400 police 
officers which, as the Mayor indicated, would bring us to the 
full strength of 4,200. And it is exciting to know that we will 
be able to reach that just in a matter of months.
    And we recognize, too, that it isn't just a question of law 
enforcement. Congressman Ruppersberger talked about gangs 
earlier. The Council recently authorized more than $1 million 
to look at the gang problem in the District of Columbia. And we 
are actually studying it from the very perspective that he 
talked about. And that is, gangs as a substitute for families. 
In fact, the work is being done by our network of family 
strengthening collaboratives in the District of Columbia. And 
we expect to have some results from that by the end of this 
fiscal year and to move to work with the Mayor to try to 
implement some of the findings of that.
    We also have before us a piece of legislation that we 
expect to fund during this budget period. And that is the motor 
vehicle theft prevention program which has been successful in 
12 other states. It would allow us to have an intensified focus 
on motor vehicle theft in the District of Columbia. And we know 
that those issues can lead to so many other crimes as well, 
especially as our kids, you know, who steal cars and engage in 
other kinds of crimes as a result of that get younger and 
younger.
    Mr. Serrano. Thank you to both of you for that answer. This 
is incredible. While we are sitting here, Mr. Regula got an e-
mail from Senator McCain, and I got one from Senator Obama and 
Mrs. Clinton. They just want to know, is the city ready for 
their inauguration? Are we ready for them?
    Mayor Fenty. Yes, yes, Mr. Chairman.
    Mr. Serrano. It is going to be a big party. We are looking 
forward to it. That concludes our round of questioning.
    Committee rules do not provide for noncommittee members to 
participate. However, we are honored to have Ms. Holmes Norton 
with us. And I ask unanimous consent, which I got from Mr. 
Regula, to have her address the committee on the hearing. And 
that is what I want to do because it is the proper thing. 
Besides, she is the one that got me on the field at Nationals 
Stadium during that first game. And I have got to be grateful, 
if you know what I mean. You were too busy taking pictures with 
the players. You know, we just went through the same thing in 
the Bronx, the history of that stadium. Half the folks thought 
it was a great idea and half thought it was a terrible idea. I 
am two blocks from that stadium. I bet you, 5 years from now, 
they will think that we were geniuses for building a new 
Yankees Stadium. I suspect the same thing is going to happen in 
D.C. because it looks good and it is part of a larger plan.
    Mayor Fenty. That is right.
    Mr. Serrano. A larger plan.
    Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. And all I 
was doing was taking care of the Chairman. I haven't been here 
for 17 years for nothing. I do want to say how much I 
appreciate your courtesy, Mr. Chairman, in allowing me to sit 
with you. I appreciate, having lived in New York, having met 
you first in New York, that the highest compliment you could 
give me is for you to call me a nudge.
    Mr. Serrano. Nudge.
    Ms. Norton. Yes. You see, if you are a New Yorker, you know 
how to truly pronounce it. But the Chairman and I also know 
some words in Yiddish that neither of us would like to be 
called. So I accept nudge.
    I want to thank Mr. Regula while I am sitting here as well 
because most of the time I was in Congress, I was dealing with 
Mr. Regula. First, I want to say that Mr. Regula, before I came 
to Congress, long before I came to Congress, was regularly 
putting in his own voting rights bill. It is a very reasonable 
bill. It is a logical bill. It is not the first choice of the 
District of Columbia. But it had nothing to do with nudging 
from me or from residents. It had to do with his sense that you 
don't have people paying taxes, going to war. And I just want 
to thank him again for that.
    When we had our--when we had our hearings, I specifically 
asked that Mr. Regula's bill also be included in the hearings, 
when we were having hearings on this bill. I want to thank you 
also, Mr. Regula, because it was when I was in the minority 
that we got the agreement that has since been honored by this 
Chairman that the District budget would always come out on 
September 30. This is an extraordinarily important action for 
us not to have to wait months and months because sometimes the 
Congress cannot always get its own work done in time.
    Mr. Chairman, I do want to say for myself how much I 
appreciate your invaluable leadership on the entire budget 
process. I want to note that what you have done on needle 
exchange and on voting rights, allowing us to spend our own 
money is hard--it is hard to indicate what that has meant to 
the city or to me personally. The Mayor was quick to fund a 
comprehensive needle exchange. So a needle exchange is a very 
small part of what, in fact, he has put the city money with the 
support of the City Council to doing. It means everything to 
the residents of the District of Columbia. And I think you will 
see the AIDS rate go down the way it went down sharply in New 
York, for example, when you did needle exchange, which you, 
too, did it the right way. You were in office a few months 
before you had moved each of these two priorities, matters 
forward to us, and we deeply appreciate it.
    I do want to congratulate the Mayor, Mayor Fenty, and City 
Council Chairman Gray. This is a new Mayor and a new City 
Council Chairman so they both had to start off learning from 
each other and working with each other. To be sure, the mayor 
found a city in working order, thanks to the prior mayor, but 
he has taken that working order and in many ways improved it. 
You have asked him about the schools which for him has become a 
signature issue. And I think for the city it is that kind of 
issue. He could not have done it without a council chair who 
had, in some ways, a much harder job because he has got 13 
independent people whom he has to convince for everything. And 
he has done the most extraordinary job in bringing people 
together. I think we are very fortunate to have both of these 
elected officials.
    I did want you to know, Mr. Chairman, Ms. Wasserman Schultz 
raised the question of the Visitor Center. And we are--my 
subcommittee is the authorizing committee. This is something 
that is going to be a great concern to all Members because when 
the Visitor Center opens and we have had a hearing on it as 
well as on the infrastructure of the Capitol, we are going to 
have more people come in. They are going to be your people, if 
I may say so, Mr. Chairman, and Mr. Regula. And it is truly--
the city has a new issue, making sure that these people get 
here and get here quickly. But I agree with Ms. Wasserman 
Schultz; you cannot possibly drag people up to Union Station 
and say, give me a buck, and then we will let you go to the 
Visitor Center. You and I are going to be blamed for that, for 
charging people to be sent to the Capitol.
    Interestingly--and this is a happy coincidence--I was so 
concerned about the plan that I asked everyone to come to see 
me, the Capitol Police, all concerned. And at 4:00 today, Mr. 
Chairman, there is a meeting on this matter. One solution seems 
to me is already in place, and I have asked them to consider 
that solution. I am always ready to hear why it doesn't work. 
We have the buses come to the Botanic Gardens, leave off all of 
your constituents, and then, without all of the air pollution, 
we use golf carts for people who need them. The others walk up. 
And everybody seems to be happy.
    So the whole notion of saying to everybody, we are not 
going to take you to the Capitol, we are going to take you to 
Union Station. Then we are going to put you on another bus; you 
will love it, and we want a dollar from you. Tourist 
unfriendly.
    I don't know what would make anybody want to do it that 
way. But I think you ought to want us to stop it before you get 
a whole bunch of Members coming at you from every end once that 
dollar has to be put over by school children, by people who 
barely made it to D.C. But we are trying to deal with this in 
the way we deal with everything involving the Capitol, 
cooperatively with the city.
    I do want to say for the record since it was raised, Mr. 
Chairman, that the two public officials sitting before you 
urged me to oppose private school vouchers, and I did so. The 
majority of District residents did. It was a pilot program. It 
ended as of this year. There may need to be some more funding 
in order to allow the children to be properly placed. The 
program funded a study. And after 1 year, they were supposed to 
report back whether there was any difference in the performance 
of children in the public schools and in the other schools.
    And the report, if I may read it, just to put it on the 
record, the report found--and here is what it found: There was 
no significant impact off the program on reading or math 
achievement.
    And the whole purpose was to see whether or not if you took 
a controlled group and compared them, there would be 
significant differences.
    Mr. Chairman, there are long waiting lists of children who 
want to get into the D.C. charter schools. These are public 
schools accountable to the people of the District of Columbia. 
I had met with the voucher parents. They have said to me that 
one of the reasons that they were enthusiastic about vouchers 
is they could not get into charter schools. My own view is that 
the preferred local school district, the residents prefer, and 
we have become a model for the Nation of charter schools. That 
is where, it seems to me, at least after this year, the money 
should go. I want to quote you a poll that shows that 76 
percent opposed giving taxpayer-funded vouchers to parents to 
pay for their children to attend private schools.
    Finally, and I raised that only because it was put on the 
record and it needed to have on the record, it seems to me, the 
information that I had. And I want you to know, Mr. Chairman, 
the authorizing committee has not and has indicated it will not 
reauthorize this program, that we have done what we said we 
would do for 5 years. We do not intend to leave these children 
out here, and so some funding may be necessary.
    I want to congratulate the city. The bond rating, Mr. 
Chairman, is among the things that are most important to look 
at. They have a projected decline of $62.5 million each fiscal 
year. To his credit, Mr. Gandhi usually comes up with a very 
conservative projection. And it might not be that steep, but I 
congratulate you for warning us that it could be that steep. 
And I want you to know that part of your money comes from 
commercial real estate. We have had a decline. And what you are 
able to get in revenue from residential real estate, I note in 
your testimony, Mr. Mayor, that for commercial office space, 
there was an increase of 4.4 percent. And the amount of 
commercial office space and the vacancy rate declined from 6.2 
percent to 5.8 percent, meaning that that is a robust--still a 
robust part of your economy. I am chair of the subcommittee 
that has to do with Federal leasing and construction.
    Mr. Chairman, you also have seen St. Elizabeth's, and we 
hope to get those funds out.
    Thank you very much for indulging me.
    Mr. Serrano. Thank you. Mr. Regula.
    Mr. Regula. Thank you, Mr. Chairman.
    I congratulate you, Mr. Mayor, on what you are doing in the 
education system. And I want to say, even though I am leaving 
here, I am going to follow your success.
    Mayor Fenty. Thank you.
    Mr. Regula. Because it is the most important thing for this 
city to do what you are doing and to give these young people 
opportunities that they might not otherwise have.
    And secondly, I want to congratulate you, Mr. Chairman. 
This is your maiden voyage as a Chairman of this committee. You 
have done a superb job. I have been on a lot of subcommittees 
over 36 years, and you do it very well. And it has been a 
pleasure to work with you. And as I said earlier, we have been 
extremely collegial in trying to address the challenges. But 
none is greater than the one you have as leader of this city, 
and I think you are doing a great job on with that 
responsibility, too. And thank you, Mr. Chairman.
    Mr. Serrano. Thank you. And let me conclude this hearing 
with two final comments.
    One, I want to reiterate the deep appreciation and respect 
that this committee and this Congress has for you, Mr. Regula. 
Thirty-six years is a long, long time to be in Congress, to be 
anywhere, doing this kind of work. And the service, you know, 
the press always talks about problems in Congress. They never 
talk about this kind of service and this kind of dedication. 
All of you who are out there know what dedication is, otherwise 
you wouldn't be here today. So we thank you for your special 
respect for your colleagues and your special respect for the 
District of Columbia.
    I can only reiterate once again how difficult it was for me 
when I found out, as a person that was born in a territory of 
the United States, I was going to oversee a committee that 
oversaw District of Columbia. And so I don't know what others 
may feel, but I will continue to try to get rid of the job that 
I have so that you have more and more home rule, and I will 
have less and less to say about D.C.
    And with that in mind, we stay committed to helping you. 
There are two places we live in: We live in our districts, and 
we live in this region, this area. So whatever happens here is 
to our benefit and to our pride and joy. All I can tell you is, 
next year you should come in behind me in the race. It would 
help your budget request.
    But other than that, Mr. Mayor, Mr. Chairman, Dr. Gandhi, 
we are so proud to be involved with you. And we thank you.
    Mr. Regula. And I thank you, Mr. Chairman, for teaching me 
all about baseball.
    Mr. Serrano. Hey. You know, we have exported three things 
to Latin America: Democracy, capitalism, baseball. One of the 
three has been a huge success.

[GRAPHIC] [TIFF OMITTED] T2830A.142

[GRAPHIC] [TIFF OMITTED] T2830A.143

[GRAPHIC] [TIFF OMITTED] T2830A.144

[GRAPHIC] [TIFF OMITTED] T2830A.145

[GRAPHIC] [TIFF OMITTED] T2830A.146

[GRAPHIC] [TIFF OMITTED] T2830A.147



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Duff, J.C........................................................     1
Fenty, A.M.......................................................   133
Gandhi, N.M......................................................   133
Gibbons, J.S.....................................................     1
Gray, V.C........................................................   133
Kennedy, A.M.....................................................   101
Thomas, Clarence.................................................   101


                               I N D E X

                              ----------                              

                         The Federal Judiciary
                             March 12, 2008

                                                                   Page
Chairman Serrano's Opening Statement.............................     1
Mr. Regula's Opening Statement...................................     2
Judge Gibbons' Testimony.........................................     2
Statement of Paul R. Michel, Chief Judge, U.S. Court of Appeals..    23
Statement of United States Sentencing Commission.................    27
Statement of Jane A. Restani, Chief Judge, U.S. Court of 
  International Trade............................................    33
Statement of Hon. Barbara J. Rothstein, Director, Federal 
  Judicial Center................................................    36
Director Duff's Testimony........................................    39
Retroactivity of Crack Cocaine Sentencing Amendment..............    52
Cost Containment.................................................    53
Panel Attorney Rates.............................................    54
Judges Leaving the Federal Bench.................................    55
Workload of Judges...............................................    57
Federal Protective Service.......................................    57
Construction of New Courthouse in Los Angeles....................    58
Questions for the Record:  Chairman Jose E. Serrano..............
61  Ranking Member Regula..............................................
                                                                     86

                      United States Supreme Court
                             March 13, 2008

                                                                   Page
Chairman Serrano's Opening Statement.............................   101
Mr. Regula's Opening Statement...................................   102
Justice Kennedy's Testimony......................................   102
Statement of Stephen T. Ayers, Acting Architect of the Capitol...   109
Justice Thomas' Testimony........................................   113
Building Modernization...........................................   113
Judicial Salaries and Ethics.....................................   114
Teaching the Role of the Judiciary...............................   116
Politicization of the Judiciary..................................   117
Supreme Court Workload...........................................   119
Judicial Pay.....................................................   120
Moment of Silence for the Troops.................................   122
Electronic Courtrooms............................................   122
Cameras in the Courtroom.........................................   123
Minority Hiring..................................................   125
Releasing Audio Tapes and Other Information......................   127
Court Security...................................................   128
Supreme Court Visitors...........................................   128
Supreme Court Jurisprudence......................................   129
International Judicial Visits....................................   130

                          District of Columbia
                             April 30, 2008

                                                                   Page
Chairman Serrano's Opening Statement.............................   133
Mr. Regula's Opening Statement...................................   134
Mayor Fenty's Testimony..........................................   135
Chairman Gray's Testimony........................................   142
Dr. Gandhi's Testimony...........................................   155
Quarters Program.................................................   181
D.C. Public School Reform........................................   181
HIV/AIDS Prevention Programs.....................................   182
School Dropout Prevention........................................   194
Three-Sector Education Funding...................................   194
D.C. Statehood...................................................   195
Cap on Attorney Fees for Special Education Cases.................   196
Federal Funding of D.C...........................................   196
Federal Funding for D.C. Education...............................   197
Court-Appointed Special Advocate Program.........................   198
National Children's Alliance.....................................   198
Washington Metropolitan Area Traffic.............................   200
Gang Task Force..................................................   201
D.C. Representation in Congress..................................   202
Capitol Visitor Center...........................................   203
D.C. and Capitol Police Coordination.............................   204
Bike Sharing Program.............................................   205
Fiscal Situation.................................................   205
Financial Audit..................................................   206
Crime............................................................   206
Questions for the Record:  Chairman Jose E. Serrano..............
213  Ranking Member Regula.............................................
                                                                    215

                                  <all>
</pre></body></html>
